     REDACTED FOR PUBLIC RELEASE




  FOLLOW-UP AUDIT OF THE
TERRORIST SCREENING CENTER
       U.S. Department of Justice
     Office of the Inspector General
              Audit Division

          Audit Report 07-41
           September 2007




     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                       FOLLOW-UP AUDIT OF THE
                    TERRORIST SCREENING CENTER*

                             EXECUTIVE SUMMARY
       The Terrorist Screening Center (TSC) is a multi-agency organization
administered by the Federal Bureau of Investigation (FBI) that consolidates
terrorist watchlist information and provides 24-hour, 7-day a week
operational support for federal, state, local, and foreign governments. 1 The
TSC was created by the September 16, 2003, Homeland Security
Presidential Directive-6 (HSPD-6), which directed the TSC to integrate all
existing U.S. government terrorist watchlists and assist in the screening of
individuals who, for example, apply for a visa, attempt to enter the
United States through a port-of-entry, attempt to travel internationally on a
commercial airline, or are stopped by a local law enforcement officer for a
traffic violation. Prior to the establishment of the TSC, the federal
government relied on at least a dozen separate terrorist watchlists
maintained by different federal agencies.

       In June 2005, the Department of Justice Office of the Inspector
General (OIG) issued an audit of the TSC’s operations from the time of its
inception in 2003. 2 The OIG reported that although the TSC had made
significant strides in becoming the government’s single point-of-contact for
law enforcement authorities requesting assistance in identifying individuals
with possible ties to terrorism and had developed a consolidated terrorist
watchlist database, the TSC had not done enough to ensure that the
information in that database was complete and accurate. For example, we
reported instances where the consolidated database did not contain names
that should have been included on the watchlist. Additionally, we found
inaccurate or inconsistent information related to persons included in the
database. In this prior review, we also found problems with the TSC’s
management of its information technology, a crucial facet of the terrorist
screening process. Our June 2005 report included 40 recommendations to



        * The full version of this report includes information that the FBI considered to be
law enforcement sensitive and therefore could not be publicly released. To create this
public version of the report, the OIG redacted (deleted) the portions of the full report that
were considered sensitive by the FBI, and we indicated where those redactions were made.
       1
        The participating agencies include the FBI, Central Intelligence Agency (CIA), and
the Departments of Homeland Security (DHS) and State (State Department).
       2
        Department of Justice, Office of the Inspector General, Review of the Terrorist
Screening Center, Audit Report 05-27, June 2005.

                                    -i-
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


the TSC addressing areas, such as database improvements, data accuracy
and completeness, and staffing.

      The objectives of this follow-up audit were to: (1) determine if
accurate and complete records are disseminated to and from the watchlist
database in a timely fashion; (2) review the TSC’s efforts to ensure the
quality of the information in the watchlist database; and (3) assess the
TSC’s efforts to address complaints raised by individuals who believe they
have been incorrectly identified as watchlist subjects.

      To accomplish these objectives, we interviewed more than 45 officials
and reviewed TSC documents and databases. To evaluate the accuracy and
completeness of the consolidated watchlist, we analyzed the consolidated
database as a whole, including a review of the number of records in the
database, any duplication that existed within those records, and the
associated watchlist processes. We also tested individual records within the
database for accuracy and completeness, as well as the timeliness of any
related quality assurance activities. Finally, we assessed the TSC’s activities
related to individuals who raised complaints following their involvement in a
screening encounter. This included examining the TSC’s coordination with
other participating agencies and reviewing a sample of such cases to
determine if the actions taken were timely and conformed to TSC policy. 3

Results in Brief

       Overall, this follow-up audit found that the TSC has enhanced its efforts
to ensure the quality of watchlist data, has increased staff assigned to data
quality management, and has developed a process and a separate office to
address complaints filed by persons seeking relief from adverse effects
related to terrorist watchlist screening. However, we also determined that
the TSC’s management of the watchlist continues to have weaknesses. For
example, the TSC is relying on two interconnected versions of the watchlist
database. As a result of this and other conditions, we identified several
known or suspected terrorists who were not watchlisted appropriately.
Specifically, we identified 20 watchlist records on suspected or known
terrorists that were not made available to the frontline screening agents
(such as a border patrol officer, visa application reviewer, or local police
officer) for use during watchlist screening encounters (such as at a border
crossing, through the visa application process, or during a routine traffic
stop). We also found that the number of duplicate records in the database
has significantly increased since our last review.

       3
         Detailed information regarding the audit objectives, scope, and methodology is
contained in Appendix I.

                                   - ii -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE



       In addition, because of internal FBI watchlisting processes, we found
that the FBI bypasses the normal international terrorist watchlist nomination
process and enters these nominations directly into a downstream screening
system. This process is cumbersome for the TSC and, as a result, the TSC is
unable to ensure that consistent, accurate, and complete terrorist information
is disseminated to frontline screening agents in a timely manner.

       We also concluded that the TSC needs to further improve its efforts for
ensuring the accuracy of the watchlist records. We found that, in general,
the TSC’s actions to review records as part of a targeted special project
successfully ensured the quality of the data. In contrast, our examination of
the routine quality assurance reviews revealed continued problems. We
examined 105 records subject to the routine quality assurance review and
found that 38 percent of the records we tested continued to contain errors or
inconsistencies that were not identified through the TSC’s quality assurance
efforts. Although the TSC had clearly increased its quality assurance efforts
since our last review, it continues to lack important safeguards for ensuring
data integrity, including a comprehensive protocol outlining the agency’s
quality assurance procedures and a method for regularly reviewing the work
of its staff. Additionally, the TSC needs to work with partner agencies to
develop clearly defined areas of responsibility and timeframes for quality
assurance matters.

       A single omission of a terrorist identity or an inaccuracy in the
identifying information contained in a watchlist record can have enormous
consequences. Deficiencies in the accuracy of watchlist data increase the
possibility that reliable information will not be available to frontline screening
agents, which could prevent them from successfully identifying a known or
suspected terrorist during an encounter or place their safety at greater risk
by providing inappropriate handling instructions for a suspected terrorist.
Furthermore, inaccurate, incomplete, and obsolete watchlist information
increases the chances of innocent persons being stopped or detained during
an encounter because of being misidentified as a watchlist identity.

       We are also concerned that the TSC’s ongoing review of the watchlist
will take longer than projected. At the time of our audit field work in
April 2007, the TSC was continuing its efforts to conduct a record-by-record
review of the consolidated watchlist and anticipated that all watchlist records
would be reviewed by the end of 2007. However, the watchlist database
continues to increase by an average of over 20,000 records per month and
contained over 700,000 records as of April 2007. Given this growth and the
TSC’s weak quality assurance process, we believe the TSC is


                                - iii -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


underestimating the time required to sufficiently review all watchlist records
for accuracy.

       Our audit further determined that the TSC was following its procedures
and reaching appropriate resolutions in its review of complaints filed by
individuals seeking redress from further adverse experiences that they
believed were the result of terrorist watchlist screening. However, we found
that the redress reviews were not always completed in a timely manner, and
we recommend that the TSC and partner agencies develop timeliness
measures for each phase in the redress process.

      Additionally, the TSC’s redress reviews have identified that the
database contains records for individuals that should not be watchlisted and
that some watchlist records are inaccurate or incomplete. We believe that
these results provide a further indicator that watchlist data needs continuous
monitoring and attention. We also believe that the TSC should use
information related to terrorist watchlist identities that are frequently the
subject of watchlist encounters to proactively initiate redress reviews before
complaints are filed.

      Our report contains detailed information on the full results of our
follow-up review of the TSC and contains recommendations to help the TSC
carry out its important role in the terrorist watchlisting process.

Summary of Watchlist Nomination, Screening, and Redress Processes

       Agencies that conduct counterintelligence, counterterrorism, and law
enforcement activities provide information to the FBI and the National
Counterterrorism Center (NCTC) on suspected or known terrorists who are
nominated for inclusion on the consolidated terrorist watchlist maintained by
the TSC. 4 The FBI is responsible for submitting to the TSC all domestic
terrorist identity nominations, and NCTC is responsible for submitting
international terrorist identity nominations. 5 These two agencies employ
analysts who review the information on the known or suspected terrorist
identity and forward an unclassified subset of information to TSC analysts,
who then review the information to ensure that all required criteria are met

       4
          NCTC was established on May 1, 2003, to develop comprehensive threat
assessments through the integration and analysis of terrorist information collected
domestically and abroad by the U.S. government. NCTC is a component of the Office of the
Director of National Intelligence and was formerly known as the Terrorist Threat Integration
Center.
       5
         The FBI is a source agency for domestic and international terrorist information; it
forwards relevant information to NCTC on suspected or known international terrorists.

                                   - iv -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


to incorporate the identity record in the TSC’s consolidated terrorist
screening database (TSDB). As additional information is obtained that either
enhances the identifying information or indicates that the individual has no
nexus to terrorism, source agencies must also submit this information
through the nominating process to effect watchlist record modifications and
deletions, as appropriate.

       The review performed by analysts at NCTC, the FBI, and the TSC
includes an analysis of information supporting the watchlist nomination, as
well as an examination of the quality, accuracy, and sufficiency of the
identity information. 6 Thus, all identity records undergo a two-stage review
before inclusion in the TSDB: (1) at NCTC and then at the TSC for
international terrorist identities, or (2) at the FBI and then at the TSC for
domestic terrorist identities.

       The TSC shares the terrorist information contained in the TSDB by
sending it “downstream” to other government screening systems where
frontline screening agents can use the information to identify individuals
against TSDB records. 7 The following are examples of three databases that
contain information from the TSC’s consolidated watchlist: (1) an employee
of the U.S. Customs and Border Protection (CBP) agency at a U.S. port-of-
entry searches the DHS’s Interagency Border Inspection System (IBIS) to
determine if a person should be granted access to the United States, (2) a
state police officer stops a vehicle for a traffic violation and queries the
driver’s name in the FBI’s National Crime Information Center (NCIC) system,
and (3) a State Department consular affairs official searches the Consular
Lookout and Support System to determine if a foreign national should be
granted a visa to visit the United States. The TSC reported that
approximately 270 million individuals are screened by frontline screening
agents and law enforcement officers each month. 8

       When a name appears to be a match against the terrorist watchlist,
frontline screening and law enforcement personnel contact the TSC’s

       6
          The TSC’s general criterion for including a record in the consolidated watchlist
database is that the nominating agency must have provided evidence of a nexus to
terrorism. From a data perspective, the minimum criteria for inclusion of a terrorist identity
into the TSDB are that the record contains at least a partial name (e.g., given name,
surname, or both) and at least one additional piece of identifying information (e.g., date of
birth).
       7
        A description of each of the downstream screening systems is contained in
Appendix II.
       8
         The TSC provided data on screening agency encounters from February through
April 2007. We reported the average of these 3 months.

                                   -v-
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


24-hour call center for assistance in confirming the subject’s identity. In
responding to such a call, the TSC Call Center staff searches the TSDB and
other databases to determine if a terrorist watchlist identity match exists.
Between the TSC’s inception in December 2003 and May 2007, the TSC has
documented more than 99,000 encounters for which its call center was
contacted. TSC data shows that 53.4 percent of these calls were determined
to be a positive match to a terrorist watchlist identity in the TSDB. In those
cases, the TSC contacted the FBI, which is responsible for initiating any
necessary law enforcement action. In 43.4 percent of these calls, it was
determined that the encountered individual did not match the watchlisted
identity, and the TSC Call Center staff instructed the frontline screening
agent of this resolution. In the remaining 3.2 percent of the encounters, the
TSC Call Center staff could not definitively determine if the match was
positive or negative and therefore forwarded these calls to the FBI.

       The nature of the U.S. government’s actions to screen individuals
against the consolidated terrorist watchlist can result in individuals being
delayed or detained during security screenings. This can range from an
individual being subjected to enhanced security screening and slight delays
to missing a flight or being detained for a long period of time. Persons
stopped may be actual watchlist subjects, individuals misidentified to a
terrorist identity, or someone mistakenly included on the watchlist.

       In 2005, the TSC created a process for resolving complaints from
individuals who were adversely affected by terrorist watchlist-related
screenings and who were seeking relief or “redress.” Since the creation of a
unit dedicated to processing such complaints in 2005, the TSC Redress
Office has received 438 terrorist watchlist-related redress complaints.

Known or Suspected Terrorists Missing from Watchlist

       Our review revealed continued instances where known or suspected
terrorists were not appropriately watchlisted on screening databases that
frontline screening agents use to identify terrorists and obtain instruction on
how to appropriately handle the subjects. Even a single omission of a
suspected or known terrorist from the watchlist is a serious matter. We
found at least 20 watchlist records that were not appropriately watchlisted to
downstream screening databases. These watchlisting errors are discussed in
detail below.

      Due to technological differences and capabilities of the various systems
used in the watchlist process, the TSC maintains two interconnected versions
of the TSDB to allow for the electronic import and export of data. Although
the TSC is developing an upgraded TSDB to eliminate the need for the two

                               - vi -
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


systems, in the meantime TSC officials informed us that these two databases
should be identical in content and therefore should contain the same number
of records. However, we discovered during our review that these two
systems had differing record counts. Specifically, on one day that we tested
the databases the difference was 18 records, and on a subsequent day the
difference was 38 records.

       On March 26, 2007, the TSC informed us that the differing record
counts were due, in part, to five watchlist records that were missing from
the TSC database responsible for exporting watchlist records to most
downstream screening databases. Therefore, the associated terrorist
identities were not included in downstream databases used to screen
individuals against the terrorist watchlist. Further, our testing of a sample of
105 watchlist records revealed 7 additional watchlist identities that were not
being exported to all appropriate screening databases. As a result of the
TSC’s failure to export all terrorist watchlist records to screening databases,
these 12 watchlisted individuals could be inappropriately handled during an
encounter. For instance, a suspected or known terrorist could be
erroneously issued a U.S. visa or unknowingly allowed to enter the United
States through a port-of-entry. We discussed these records with TSC
officials who agreed with our findings and began correcting these omissions.

       During the course of our review, we were also informed by TSC
officials that in September 2006 they had identified 2,682 records in the
TSDB that were not being exported to any screening database. Working
with NCTC, the TSC determined that 2,118 of these records should not have
been watchlisted in any system and needed to be removed from the TSDB. 9
TSC officials conducted a manual review of the remaining 564 records and
determined that 8 had not been appropriately watchlisted and needed to be
renominated to the TSDB.

       However, despite being responsible for removing outdated or obsolete
data from the TSDB, the TSC did not have a process for regularly reviewing
the contents of the TSDB to ensure that only appropriate records were
included on the watchlist. TSC officials told us that they intend to begin
performing a monthly review of the database to identify any records that are
being stored in the TSDB that are not being exported to any downstream
systems. We believe it is essential that the TSC regularly review the TSDB
to ensure that all outdated information is removed, as well as to affirm that
all records are appropriately watchlisted.



      9
         On April 27, 2007, the TSC implemented an information technology solution to
delete these records.

                                  - vii -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Inconsistent FBI Procedure for Processing Watchlist Data

       The FBI’s Terrorist Review and Examination Unit (TREX) receives
requests from FBI agents to include an individual with known or suspected
ties to terrorism on the terrorist watchlist. These requests are provided on
nomination forms, which are also used to modify previous submissions or
remove records from the watchlist. Analysts at TREX review the nomination
information for accuracy and completeness. Once verified, nomination forms
for known or suspected domestic terrorists are electronically forwarded to
the TSC where a TSC analyst manually enters the information into the TSDB.
This information is electronically distributed to the downstream screening
agency data systems, including the FBI’s Violent Gang and Terrorist
Organization File (VGTOF), which is part of the NCIC system.

       By contrast, once the TREX analyst verifies an FBI-generated
international terrorist nomination, the analyst enters the information into
VGTOF directly and then submits the nomination form to NCTC. Following
its review and vetting, the NCTC analyst manually enters the information
into its database – the Terrorist Identities Datamart Environment (TIDE) –
that in turn feeds the information to the TSDB. Because TREX has already
entered the record into VGTOF, it is not necessary for the TSC to export the
record it receives from TIDE to VGTOF. Therefore, these records are not
exported from the TSDB to VGTOF. 10 Because these VGTOF records will not
receive electronic modifications or deletions from the TSDB, the TSC and
TREX have agreed that TREX will be responsible for ensuring FBI-originated
international watchlist records in VGTOF are accurate, complete, and
current.

      The FBI’s direct entry of international terrorist watchlist nomination
data into a downstream screening database bypasses NCTC and the TSC and
makes it difficult for the NCTC and the TSC to carry out their responsibilities
related to watchlist nominations and records. In our opinion, this process
does not comport with the nomination and data flow procedures agreed to
by the partner agencies, which requires agencies to provide to NCTC, rather
than directly into a downstream database, information related to known or
suspected international terrorists. Additionally, we believe the FBI’s practice
is cumbersome for the TSC and creates unnecessary data errors, anomalies,
and inconsistencies as described below.


       10
          To alert the TSC of this non-standard entry of records into the TSDB, the TSC
implemented a special flag, referred to as “FBI sole source,” for FBI-originated international
records. This designation precludes all future electronic transactions, including related
modifications and deletions, from being exported from the TSDB to VGTOF.


                                   - viii -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


       To test for data accuracy and consistency, we reviewed a judgmental
sample of 50 FBI-originated additions or modifications to the watchlist. 11
We found that while the records for the domestic terrorist nominations were
generally accurate, the international terrorist nominations were not. We
identified 16 records with 28 instances in which the identifying information
related to international terrorists was inconsistent between the nomination
form, VGTOF, TIDE, TSDB, or other screening systems. According to
TSC officials, TREX analysts frequently augment the data on the nomination
forms with information they glean from FBI case files and enter this
additional information into the VGTOF system. However, this supplemental
case information is not forwarded to NCTC and as a result the information is
not included in TIDE, not sent to the TSDB, and not made available, if
appropriate, to downstream screening systems. Further, because TREX
enters the record into VGTOF before the addition of any other existing
information from other government databases to which NCTC has access,
this additional information is often not included in VGTOF. As a result, vital
information on watchlist subjects is not being shared with all appropriate
screening agencies.

       In addition, we found that the FBI’s procedures for processing
international terrorist watchlist nominations are cumbersome for the TSC
and can inadvertently create an incomplete watchlist. The difference in
procedures between the FBI’s and other agencies’ watchlist nominations
requires TSC analysts to review every incoming international terrorist
nomination and indicate within the record whether it is an FBI source record.
If a terrorist watchlist record is improperly designated as an FBI source
record, the subset of terrorist watchlist records in VGTOF will be incomplete
because that record will not be exported to or modified within VGTOF. TSC
staff told us that they were concerned about this because, when reviewing
nominations from NCTC, it is often difficult to distinguish between FBI source
records and nominations received from other agencies. In fact, TSC staff
stated that there was a period of time (possibly as long as a year) in which
many records had been improperly designated as FBI-originated records and
vice versa. In March 2007, the TSC and NCTC addressed this problem by
developing a method to permit TSC analysts to more easily identify FBI
source records.

      FBI officials responded to our concerns by stating that they had
implemented their nomination procedures to ensure that FBI international
terrorist information was entered into VGTOF in a more efficient manner.
Yet, our review of 70 FBI record transactions (50 nominations previously

       11
          The total sample of 50 records consisted of 25 each for domestic and
internationally known or suspected terrorists. These 50 records were part of our
156 watchlist record sample that we selected for testing.

                                   - ix -
                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


mentioned and 20 deletions) revealed that although the transactions were
entered into VGTOF in a timely manner, the transactions were not
incorporated into the TSDB in a timely fashion. 12 Specifically, 18 of the
70 transactions took more than 5 days for TREX to process, with one
transaction taking 35 days. In addition, we identified 2 instances in which
TREX erroneously delivered nomination forms for domestic terrorists to
NCTC that resulted in delays of 6 and 16 days, respectively.

      Delays in including terrorist information in the consolidated database
present a significant vulnerability to the integrity of the consolidated
watchlist. Further, the FBI’s current practice of bypassing NCTC and the TSC
and entering international terrorist-related data directly into VGTOF
increases the likelihood that watchlist information within the TSDB, TIDE,
VGTOF, and other downstream databases is inaccurate and incomplete. As a
result, we recommend that the FBI, NCTC, and TSC work together to design
a more consistent and reliable process by which FBI-originated international
terrorist information is provided to NCTC for inclusion in TIDE and
disseminated to the TSDB and downstream screening systems, including
VGTOF.

Duplicate Terrorist Watchlist Records

       Multiple records containing the same unique combination of basic
identifying information can needlessly increase the number of records that a
call screener must review when researching a specific individual. In
addition, when multiple records for a single identity exist, it is essential that
the identifying information and handling instructions for contact with the
individual be consistent in each record. Otherwise, the screener may
mistakenly rely on one record while a second, more complete record may be
ignored. This can result in important information being missed. Further,
inconsistent handling instructions contained in duplicate records may pose a
significant safety risk for law enforcement officers or screeners.

      In reviewing the TSDB for duplicate records, we defined duplicate
records as those records that contain the same identifying information for
five primary identifying fields – [SENSITIVE INFORMATION REDACTED]. 13
In our June 2005 TSC report, we identified 31 such instances of duplicate
records in the TSDB and recommended that the TSC implement corrective

       12
          Officials from NCTC, the TSC, and TREX stated that each agency attempts to
process nominations to the watchlist within 1 day.
       13
           For each terrorist watchlist record in the consolidated database, only these five
fields are exported to downstream systems for use in identifying suspected or known
terrorists during the watchlist screening phase.

                                    -x-
                         REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


action. For our current audit, we again determined that duplicate records
existed within the TSDB and that the occurrence of duplicates had increased
significantly. In March 2007, we found that the TSDB contained
2,533 repeated combinations in the 5 core fields involving 6,262 watchlist
records. For example, one unique combination of the 5 core fields had
19 associated records. Further, our analysis of the 6,262 duplicate TSDB
records indicated that at least 20 percent had some discrepancy in handling
instruction, identifying information, or watchlist export designation. For
example, we identified one individual with duplicate identity records in the
consolidated watchlist. Because both records pertained to the same
individual, the instructions for handling the subject should be consistent.
However, we identified significant differences between the records regarding
handling instructions and additional warnings related to the individual.
Specifically, one record noted that the individual was “armed and dangerous
with violent tendencies” and also had a valid arrest warrant. The other
record did not contain this important information. These types of
inconsistencies place screeners and law enforcement officers at undue risk
and could potentially result in the admittance of a dangerous individual into
the United States.

       According to the TSC Chief Information Officer (CIO), the TSC does not
have an ongoing process to review the TSDB for duplicate records. Based on
our findings, however, the TSC CIO stated that the TSC plans to implement
a procedure to conduct weekly reviews of the TSDB for duplicate records and
forward any issues to the TSC’s internal quality assurance unit for review.

The TSC’s Watchlist Quality Efforts

      Our June 2005 audit report identified weaknesses in the completeness
and accuracy of the consolidated watchlist. At that time, TSC management
acknowledged that it needed to focus more attention on ensuring the quality
of the watchlist. We recommended that the TSC regularly review and test
the information contained in the consolidated watchlist database to ensure
the data is complete, accurate, and non-duplicative. We also recommended
that the TSC coordinate with participating agencies and establish procedures
to identify and resolve missing and conflicting record information.

      In response to our recommendations, the TSC increased its quality
assurance efforts and implemented a data quality improvement plan.
Additionally, in November 2006, the TSC’s consolidated terrorist watchlist
database was upgraded to incorporate a tracking feature for quality
assurance activities. As a result of this upgrade, individual watchlist records
in the database now contain a record (referred to as a QA ticket) in which


                                - xi -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


TSC staff can record all quality assurance work that has been performed on
that record.

      The Nominations and Data Integrity Unit (NDIU) is responsible for
performing the TSC’s activities related to ensuring the quality and accuracy
of the watchlist. The NDIU’s activities for ensuring the quality of watchlist
information can be categorized into three areas: (1) reviewing incoming
watchlist data (referred to as the single review queue); (2) performing
reviews of historical records following an encounter where the TSC identifies
a potential discrepancy in watchlist records; and (3) conducting special
quality assurance projects, such as performing a targeted review of the
Transportation Security Administration (TSA) No Fly list. 14 As of March 2007,
the TSC had assigned 34 staff to this unit. In comparison, as of September
2004 the TSC had 12 staff assigned responsibility for nominations and data
integrity tasks, including 1 staff member that was dedicated solely to quality
assurance matters.

      To examine the TSC’s efforts to ensure the quality of the information
in the TSDB, we examined 156 TSDB records that had been subjected to the
TSC’s quality assurance procedures. Of these 156 records, 36 involved
record deletions and we found that each had been handled appropriately.
Using the remaining sample of 120 records, we performed tests to
determine if the watchlist records were accurate. We found that, in general,
the TSC’s actions to review records as part of a targeted special project
successfully ensured the quality of the data, and we identified virtually no
errors in the 15 records we tested in connection with special project reviews.
In contrast, our examination of 105 records subjected to the single review
queue or post-encounter quality assurance reviews revealed that 38 percent
of these tested records continued to contain errors or inconsistencies that
were not identified through the TSC’s quality assurance efforts.

       In general, we believe the actions the TSC has taken to improve
quality assurance since our last audit are positive steps. We also recognize
that it is impossible to completely eliminate the potential for errors.
However, the inaccuracies that we identified in TSDB records that had
undergone the TSC’s quality assurance processes underscore the need for
additional actions to ensure that the TSDB is a reliable source of information
about known or suspected terrorists. The results of our testing and analysis
of the TSC’s quality assurance efforts are summarized below.




      14
           [SENSITIVE INFORMATION REDACTED]

                                 - xii -
                      REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


The TSC’s Review of the No Fly List

       In July 2006, the Homeland Security Council Deputies Committee issued
guidance on how to correctly apply its criteria for including individuals on the
No Fly list. Subsequently, the TSC submitted all TSDB records associated with
individuals who were on the No Fly list to a comprehensive quality assurance
review using this guidance. When the TSC began its review in July 2006, the
No Fly list contained 71,872 records. The TSC completed its special review of
the No Fly list on January 31, 2007, determining that the No Fly list should be
reduced to 34,230 records. 15 The TSC recommended 22,412 records for
removal from the No Fly list and placement on the TSA’s Selectee list. 16 For
another 5,086 records, the TSC determined that the individual did not require
inclusion on either the No Fly or Selectee list.

      We selected and reviewed 15 records that were part of the TSC’s review
of the No Fly list. We did not find any data inaccuracies or inconsistencies in
these records. Each record’s basic identifiers [SENSITIVE INFORMATION
REDACTED] were shown consistently in all of the affected databases and each
record remained the same or was downgraded from the No Fly list in
accordance with the final recommendation of the TSC.

Data Inaccuracies and Inconsistencies Exist After Quality Assurance Review

         Unlike our review of the No Fly list special project, however, our
examination of records passed through the TSC’s single review queue or
encounter-driven quality assurance processes revealed that records were
still likely to contain errors or inconsistencies. We examined 105 records to
determine if basic information [SENSITIVE INFORMATION REDACTED] was
shown consistently in all of the affected databases. We also verified that
correct handling codes were included on watchlist records. In short, our
testing revealed that records the TSC reviewed through its routine quality
assurance processes frequently continued to contain errors, which indicates
weaknesses in the TSC’s practices for verifying the integrity of the original
watchlist data.

     As previously reported, we found that 7 of the 105 records we tested
were not exported to appropriate downstream databases. In addition, our

       15
             During its review of the No Fly list, the TSC continued to receive routine No Fly list
additions, modifications, and deletions through the watchlist nomination process. As a
result, it is not possible to subtract the special project-driven No Fly list changes from the
starting point of 71,872 records and obtain the correct number of No Fly records as of
January 31, 2007.
       16
            [SENSITIVE INFORMATION REDACTED]

                                     - xiii -
                          REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


review of the 105 watchlist records that had been subjected to the TSC’s
single review queue or encounter-driven quality assurance processes
revealed that 35 records had inconsistent identifying information when
comparing one or more fields in the TSC’s consolidated watchlist records
with the source or screening agencies’ database records. Identifying
information related to terrorist watchlist identities must be accurate and
consistent across all systems involved in the watchlisting process, namely
the TSDB, the downstream systems, and the nominating agencies’ systems.
Inconsistent data can confuse or delay TSC Call Center operators in their
efforts to determine whether an encountered individual is a positive match
to a known or suspected terrorist. Further, inconsistent information among
databases involved in terrorism screening indicates that at least one record
may be incorrect. Incorrect records can also misinform frontline screening
agents and contribute to the misidentification of a person not on the
watchlist or the inappropriate release or admittance of a dangerous
individual. Finally, our testing of the 105 sample watchlist records also
revealed that 5 records contained incorrect handling instructions.

       During our review, it became apparent that both the TSC’s quality
assurance efforts and our reviews of watchlist records identified errors and
inconsistencies in incoming records from the source agencies – NCTC and
the FBI. We discussed the watchlist nomination process with NCTC and FBI
officials, and both agency representatives stated that records are reviewed
for accuracy, completeness, and consistency before the records are
forwarded to the TSC. However, these efforts are failing to identify a
significant number of deficiencies in the nominated records. The TSC’s
quality assurance efforts, therefore, are hampered by the inaccurate and
incomplete source material.

Untimely Resolution of Quality Assurance Issues

      Delays in the closure of quality assurance matters directly affects the
accuracy of the consolidated watchlist database because records can contain
inaccurate and incomplete information for extended periods of time while the
matter is being resolved. We examined a sample of 51 quality assurance
matters opened between February 2006 and February 2007. We found that
these matters were open from 0 days (matter was closed the same day as it
was opened) to 329 days. On average, the quality assurance matters
examined in our sample were open for 80 days.

       The TSC has not established a performance measure identifying what
it believes to be an acceptable duration for its analysts to complete a quality
assurance review. According to TSC personnel, NDIU analysts were
supposed to follow up on all quality assurance matters every 30 days.

                                - xiv -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


However, the TSC does not have a mechanism such as a standardized report
or digital dashboard that catalogs all outstanding quality assurance
matters. 17 In concert with the development of timeframes for resolving
quality assurance matters, we believe the TSC should develop a system,
including an aging schedule, to track its quality assurance work.

Weaknesses in TSC Quality Assurance Policy and Oversight

       We also found that the TSC has implemented necessary enhancements
in its quality assurance resources and processes since our last audit. Our
examination of records submitted to the TSC’s No Fly list special project
showed that the TSC’s review was generally successful in ensuring the
quality of watchlist records. However, the inaccuracies we found in our
review of watchlist records that were subjected to the TSC’s single review
queue and post-encounter quality assurance reviews – examinations that are
less comprehensive than the No Fly list review – indicate a need for further
enhancements to these quality assurance processes.

      During our audit, we performed a physical observation of TSC analysts
conducting quality assurance reviews of watchlist records. We noted that
the analysts’ method of performing their reviews was not always consistent.
For example, some analysts inspected all of the documents supporting a
TSDB record while other analysts relied solely upon summary information.
We also found that the analysts were not consistently documenting their
quality assurance work.

       We believe that this situation was caused by inadequate standard
operating procedures (SOP) detailing the TSC’s quality assurance processes
and by insufficient training. The TSC has an SOP for its quality assurance
efforts, but the document was last revised on August 16, 2005. Moreover,
the document provides incomplete guidance to analysts on the processing of
quality assurance matters and did not mention the existence of special
quality assurance projects and encounter-based quality assurance reviews.
Further, while the SOP informs the analysts performing standard quality
assurance reviews how to examine watchlist records, it fails to detail what
fields, supporting information, and other aspects of the records the analysts
should be verifying and comparing. In addition, these procedures do not
instruct the analysts on the necessary actions to take when inaccurate or
incomplete information is identified.



       17
           A digital dashboard is a business management tool that visually displays the
status of a business project. The dashboard can provide warnings, next steps, action
notices, and summaries of a project.

                                   - xv -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


      Additionally, the TSC provides its quality assurance analysts only a few
days of training before allowing them to work independently, and no
supplemental training is required. Moreover, the TSC does not have a
mechanism for regularly evaluating the work of its quality assurance
analysts to help ensure that the analysts are performing appropriate reviews
and keeping abreast of any process changes. We believe that the TSC
should develop a more detailed and comprehensive quality assurance SOP to
better guide NDIU analysts through their work. In addition, the TSC should
develop a mechanism to routinely review its analysts’ work to identify
processing deficiencies and areas requiring additional training.

Insufficient Process to Comprehensively Review Watchlist Data Quality

       In response to our previous TSC audit that identified errors and
inconsistencies in the watchlist records, the TSC stated that it intended to
conduct a record-by-record review of the approximately 400,000 records in
the TSDB. The TSC later estimated that this review would not be complete
until 2012. In February 2007, TSC officials stated that the review was being
performed through its three-pronged quality assurance strategy – the single
review queue, encounter-driven quality assurance reviews, and special
projects. TSC officials told us that they plan to examine the TSDB following
the completion of the ongoing special projects and determine how many
TSDB records have not yet been reviewed. The TSC then plans to review
any previously unexamined TSDB records.

       In February 2007, TSC officials told us that since the inception of the
single review queue in March 2006 over 670,000 TSDB records had been
reviewed and the agency had revised its estimated completion date. TSC
officials now project that the record-by-record review will be complete by the
end of 2007. However, we believe that the TSC may have overstated the
number of records reviewed and is underestimating the amount of time and
effort that it will take to complete its review of the entire TSDB. We base
these conclusions on the following factors:

      •     As previously discussed, the TSC’s single review queue and
            encounter-driven quality assurance processes do not sufficiently
            ensure the quality of the watchlist records. Therefore, the TSC
            should reconsider records examined in these processes in its
            count of records reviewed.

      •     The number of records reviewed is not limited to the review of
            unique records. Rather, the TSC’s quality assurance process
            allows for one record to be reviewed multiple times: through the
            single review queue, following each request to modify or delete

                               - xvi -
                    REDACTED FOR PUBLIC RELEASE
                                        REDACTED FOR PUBLIC RELEASE


                           the record, in accordance with one or more special projects, and
                           subsequent to each encounter. Therefore, we believe that the
                           TSC’s cumulative tally of records reviewed can include records
                           counted multiple times.

      •                    Between September 2006 and April 2007, the TSDB grew at an
                           average rate of over 20,000 records per month. This growth
                           adds to the analysts’ workload. Since April 2004, the TSDB has
                           more than quadrupled in size, growing from 150,000 to
                           724,442 records in April 2007.

      •                    As of February 2007, there were about 3,000 open quality
                           assurance matters that required follow-up.

       As part of this review, we obtained TSC data for the number of quality
assurance matters identified and resolved between November 2006 and
March 2007. 18 These data show that the TSC is identifying incomplete or
inaccurate information in TSDB records faster than the matters are being
resolved by source agencies. As the following graph shows, cumulative
differences between identified quality assurance matters and addressed
quality assurance matters increased from 177 in November 2006 to 2,514 in
March 2007. This differential also shows that the TSC is regularly identifying
errors or concerns with known or suspected terrorist records.

                          Cumulative Growth in Quality Assurance Matters
                       25,000

                                                                                                      20,657
                       20,000

                                                                                                     18,143
          QA Matters




                       15,000                                                          12,433


                       10,000
                                                                                       11,270
                                                               5,862

                        5,000                3,436
                                2,430                          5,287
                              2,253          3,116
                           0
                       November 2006     December 2006     January 2007             February 2007   March 2007

                                                         Resolved      Identified

     Source: OIG analysis of Terrorist Screening Center data


      18
        The TSC only could provide historical data on quality assurance matters since
November 2006 when the latest version of the TSDB was deployed.

                                                   - xvii -
                                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


      We believe that if the number of watchlist records and the associated
quality assurance matters in the TSDB continue to grow, the TSC will not
complete the record-by-record review of the TSDB by the end of 2007 as
anticipated. The TSC needs to accurately determine the magnitude of the
unexamined portion of the TSDB so that the TSC can implement a sound
plan for examining those records and develop a realistic completion date for
the project. Further, the TSC should establish benchmarks against which it
can measure its progress.

Watchlist Redress

     We found that the TSC’s efforts to resolve terrorist watchlist redress
matters since our previous audit have improved. For example, in 2005 the
TSC created a dedicated unit for redress matters. The TSC also helped to
spearhead the creation of a multi-agency Memorandum of Understanding
(MOU) focusing on watchlist redress (Redress MOU) and developed a
comprehensive Redress SOP to ensure watchlist information for redress
complainants is accurate, complete, and current.

       The frontline screening agencies, such as DHS and the State
Department, receive complaints from persons seeking relief, or “redress,”
related to the terrorist watchlist screening process. Matters believed to be
related to a terrorist watchlist identity or an encounter involving the
watchlist are forwarded to and reviewed by the TSC. 19 The TSC Redress
Office conducts an examination of the watchlist records, reviews other
screening and intelligence databases, and coordinates with partner agencies
for additional information and clarification. The TSC determines if any
watchlist records need to be modified or even removed from the watchlist,
ensures these identified changes are made, and notifies the referring
frontline screening agency of its resolution. The frontline screening agency
is then responsible for responding to the complainant. TSC policy requires
that responses to complainants neither confirm nor deny the existence of
watchlist records relating to the complainant. According to TSC officials, this
nondisclosure policy protects U.S. counterterrorism operations and
intelligence objectives and safeguards the personnel involved in these
sensitive activities.

       We judgmentally selected 20 redress complaints received by the TSC
between January 2006 and February 2007 and reviewed the corresponding
files to determine if the TSC followed its Redress SOP for resolving
       19
          On occasion, the TSC receives a redress complaint referral from a screening
agency and determines that the complaint does not relate to a terrorist watchlist identity or
an encounter involving the watchlist. The TSC returns such complaints to the referring
agency for resolution.

                                   - xviii -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


complaints. We found that in each of the sampled cases the TSC complied
with its Redress SOP, including reviewing the applicable screening and
intelligence databases, coordinating with partner agencies, and reaching
appropriate resolutions. However, the TSC’s redress activities identified a
high rate of error in watchlist records. In addition, we believe the TSC needs
to address the timeliness of redress complaint resolutions.

Significant Watchlist Record Changes Following TSC Redress Review

      As part of our review, we analyzed TSC data on the resolution of
terrorist watchlist redress complaints. Between January 2005 and
February 2007, the TSC closed 388 of the 438 redress complaints it
received. Through its comprehensive redress review process, the TSC
concluded that 45 percent of the watchlist records related to redress
complaints required modification or deletion from the watchlist. In some
instances, the TSC stated that redress resolution may have been
simultaneous to current watchlist record updates. We also found instances
where the TSC Redress Office found inaccuracies in the watchlist record or
discovered additional, relevant information that had not been passed to the
TSC.

      The Privacy Officer acknowledged that the high percentage of records
requiring modification or removal may point to deficiencies in the terrorist
watchlist nomination process and with nominating agencies not providing the
TSC additional information important for appropriately updating terrorist
records. We believe that the results of the TSC’s redress reviews are a
further indicator that watchlist data needs continuous monitoring and
attention.

Untimely Resolution of Redress Complaints

       The TSC is responsible for adjudicating watchlist-related complaints
through its review process and working with nominating and screening
agencies to resolve the matters in a timely fashion. The Redress MOU states
that one of the goals of the redress process is to provide a timely review,
which ensures any required changes to the watchlist are implemented
efficiently so that watchlist records do not continue to be inaccurate.

      We reviewed TSC files and statistics for closed redress matters to
determine the efficiency of redress reviews. This data revealed that it took
the TSC, on average, 67 days to close its review of a redress inquiry. For
redress matters referred to the TSC during the last semiannual period in our
review (July through December 2006), it took the TSC an average of
57 days to finalize its review. In addition to these closed matters, we also

                               - xix -
                    REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


analyzed the 50 open redress complaints as of February 27, 2007, and
determined that these matters had been open an average of 61 days. Of
these complaints, 38 percent were open over 60 days, including 2 inquiries
that were pending over 180 days.


                          Open TSC Redress Matters
                              (as of February 27, 2007)

                                    Number of               Percentage of Total
   Number of Days Open
                               Open Redress Matters        Open Redress Matters
   180 days or more                     2                            4%
   90-179 days                         12                          24%
   60-89 days                           5                          10%
   30-59 days                          11                          22%
   less than 30 days                   20                          40%
            Total                      50                         100%
   Source: The Terrorist Screening Center Redress Office

      Our review of redress files indicated that delays were primarily caused
by three factors: (1) the TSC took a long time to finalize its determination
before coordinating with other agencies for additional information or
comment, (2) nominating agencies (the FBI and NCTC) did not provide
timely feedback to the TSC or did not process watchlist paperwork in a
timely manner, and (3) certain screening agencies were slow to update their
databases with accurate and current information. For example, our file
review found that the State Department and the DHS’s Customs and Border
Protection did not revise encounter records in a screening database in a
timely fashion to reflect modified or removed terrorist identities.

       TSC officials acknowledged that it has not developed response
timeframes for redress matters with its partner agencies. While the Redress
MOU states that one of the goals of the redress process is to provide a
timely review, the MOU does not define what constitutes a reasonable
timeframe. We believe that timeliness measures could be used as standards
to evaluate the U.S. government’s efficiency in resolving terrorist watchlist
redress inquiries and responding to complainants. Because the TSC is
central to resolving any complaint regarding the content of the consolidated
terrorist watchlist, we encourage the TSC to organize the U.S. government’s
effort to develop timeliness measures for the entire watchlist redress
process.




                                 - xx -
                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


More Proactive Efforts Needed to Mitigate Incidence and
Effect of Watchlist Misidentifications

      The TSC does not have any policy or procedures to proactively use
information from encounters to reduce the incidence and impact of terrorist
watchlist misidentifications. For example, the TSC could program its
encounter tracking system to automatically generate a quality assurance
lead for the TSC to perform a comprehensive review of watchlist records that
have been the subject of a certain number of encounters. Moreover, the
TSC’s strategic plan does not include goals or actions associated with
reducing the incidence of misidentifications or the impact on misidentified
persons other than that covered by a formal redress process. Considering
that nearly half of all encounters referred to the TSC Call Center are
negative for a watchlist match, we believe the TSC should consider
misidentifications a priority and develop strategic goals and policy specific to
mitigating the adverse impact of the terrorist screening process on non-
watchlist subjects, particularly for individuals who are repeatedly
misidentified as watchlist identities.

Conclusion and Recommendations

       We found that since our June 2005 report the TSC has enhanced its
staffing and implemented practices to handle redress matters and help
ensure the quality of terrorist watchlist information. Our review also found
that the TSC’s processes for examining watchlist records as part of its
special project (the No Fly list examination) and redress complaint reviews
were comprehensive and improved watchlist data quality.

      However, we found continued weaknesses in other watchlist processes
and significant deficiencies in watchlist data. We determined that the FBI’s
fragmented international terrorism nomination process caused many
terrorist identity records to be inaccurate, incomplete, and inconsistent
across watchlist systems. Additionally, the TSC’s single review queue and
encounter-driven quality assurance processes were not successful in
ensuring the quality of watchlist records. We also found that TSC quality
assurance analysts employed disparate procedures in their reviews, and the
TSC did not have a mechanism for conducting oversight of its quality
assurance efforts.

      We believe the TSC should consider incorporating elements from its
more comprehensive reviews in its other quality assurance processes to help
better ensure the quality of watchlist data. Further, the TSC should develop
detailed, comprehensive standard operating procedures and an oversight
function for quality assurance matters.

                                - xxi -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       In addition to these process deficiencies, we found suspected or known
terrorists still missing from the watchlist or downstream screening systems,
incorrect terrorist handling codes on watchlist records, and duplicate identity
records within the TSDB. Moreover, our testing of specific watchlist records
revealed that records submitted to a TSC quality assurance review contained
significant errors –38 percent of the records tested contained data that was
inaccurate, incomplete, inconsistent, or not current. Further, our
examination of TSC redress data for positive-match encounters showed that
the TSC determined that 45 percent of the watchlist records referred for
review required modification or removal. In addition, watchlist agencies,
including the TSC and nominating and screening agencies sometimes caused
unnecessary delays in closing redress inquiry reviews.

       The results of our testing of watchlist records, as well as the TSC
finding that many records involved in its redress reviews required
modification or removal, indicate a deficiency in the integrity of watchlist
information. We recommend that the TSC resolve current process
weaknesses – within the TSC and at nominating agencies – that are
contributing to the weaknesses we identified in the watchlist data. The TSC
also needs to develop and implement a plan to complete a sufficient analysis
of all watchlist records in a timely fashion.

      This report contains 18 recommendations to help the TSC improve its
operations and the quality of watchlist data. These recommendations
include two recommendations to the FBI directly for matters pertaining to its
operations outside the TSC.




                               - xxii -
                    REDACTED FOR PUBLIC RELEASE
                           REDACTED FOR PUBLIC RELEASE


                             FOLLOW-UP AUDIT OF THE
                           TERRORIST SCREENING CENTER

                                     TABLE OF CONTENTS

INTRODUCTION .................................................................................. 1
    PURPOSE OF THE CONSOLIDATED WATCHLIST ................................................. 2
    OVERVIEW OF WATCHLIST NOMINATION AND SCREENING PROCESSES ..................... 3
    TSC ENCOUNTER MANAGEMENT ................................................................ 6
    NUMBER OF TERRORIST WATCHLIST RECORDS ................................................ 7
    HANDLING INSTRUCTIONS ....................................................................... 8
    OIG’S AUDIT APPROACH ...................................................................... 10
FINDINGS AND RECOMMENDATIONS................................................ 12
I. DATA ACCURACY AND TIMELINESS .............................................. 12
    STRUCTURE OF THE TSDB..................................................................... 12
    RECORDS NOT DESIGNATED FOR ANY WATCHLISTING ..................................... 17
    FBI PROCEDURE FOR PROCESSING WATCHLIST DATA ...................................... 18
    DUPLICATE RECORDS........................................................................... 20
    INCLUSION OF KNOWN TERRORISTS IN THE TSDB ......................................... 24
    CONCLUSION .................................................................................... 24
    RECOMMENDATIONS ............................................................................ 25
II. QUALITY ASSURANCE ................................................................. 27
    OVERVIEW OF THE TSC’S QUALITY ASSURANCE PROCESS ................................. 27
    OIG ANALYSIS OF TSC QUALITY ASSURANCE EFFORTS ................................... 31
    QUALITY ASSURANCE MANAGEMENT AND OVERSIGHT ...................................... 35
    TSC EFFORTS TO ENHANCE TERRORIST WATCHLISTING ................................... 41
    CONCLUSION .................................................................................... 42
    RECOMMENDATIONS ............................................................................ 43
III. TERRORIST WATCHLIST REDRESS ............................................ 45
    OVERVIEW OF THE TSC’S REDRESS EFFORTS ............................................... 45
    MULTI-AGENCY REDRESS AGREEMENT ....................................................... 47
    OVERVIEW OF THE TERRORIST WATCHLIST REDRESS PROCESS ........................... 47
    DISPOSITION OF REDRESS COMPLAINTS ..................................................... 51
    TIMELINESS OF PROCESSING REDRESS COMPLAINTS ....................................... 53
    RESPONSE TO REDRESS COMPLAINANTS ..................................................... 56
    APPEAL OF REDRESS DISPOSITION ........................................................... 57
    PROACTIVE REDRESS ........................................................................... 57
    CONCLUSION .................................................................................... 59
    RECOMMENDATIONS ............................................................................ 60


                              REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


STATEMENT ON INTERNAL CONTROLS .............................................. 61
STATEMENT ON COMPLIANCE WITH LAWS AND REGULATIONS ........ 62
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY.................. 63
APPENDIX II: SYSTEMS USED IN THE TERRORIST
              WATCHLIST PROCESS .............................................. 67
APPENDIX III: DIAGRAM OF TERRORIST WATCHLIST DATAFLOW... 69
APPENDIX IV: ACRONYMS ............................................................... 70
APPENDIX V: TERRORIST SCREENING CENTER RESPONSE .............. 71
APPENDIX VI: OFFICE OF THE INSPECTOR GENERAL
             ANALYSIS AND SUMMARY OF ACTIONS
             NECESSARY TO CLOSE THE REPORT......................... 77




                        REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                                  INTRODUCTION
       Prior to the establishment of the Terrorist Screening Center (TSC), the
federal government relied on at least a dozen separate terrorist watchlists
maintained by different federal agencies. The TSC was created by Homeland
Security Presidential Directive-6 (HSPD-6), signed on September 16, 2003.
In that directive, the TSC was required to integrate the existing U.S.
government terrorist watchlists and provide 24-hour, 7-day a week
responses for agencies that use the watchlisting process to screen
individuals who, for example, apply for a visa, attempt to enter the United
States through a port-of-entry, attempt to travel internationally on a
commercial airline, or are stopped by a local law enforcement officer for a
traffic violation. HSPD-6 mandated that the TSC achieve initial operating
capability by December 1, 2003.

       The TSC is a multi-agency organization administered by the Federal
Bureau of Investigation (FBI). Following the issuance of HSPD-6, the
Attorney General, the Director of Central Intelligence, and the Secretaries of
the Department of Homeland Security (DHS) and the Department of State
(State Department) entered into a Memorandum of Understanding (MOU)
describing the new organization and the level of necessary cooperation,
including the sharing of staff and information from the four participating
agencies. The MOU stipulated that the Director of the TSC would report to
the Attorney General through the FBI and required that the Principal Deputy
of the TSC be an employee of DHS. Since fiscal year (FY) 2004, the
participating agencies have shared responsibility for funding and staffing the
TSC, and for FY 2007 the TSC has a budget of approximately $83 million and
408 positions. 20

      In June 2005, the Department of Justice (DOJ) Office of the
Inspector General (OIG) issued an audit report that examined the TSC’s
operations from the time of its inception. 21 The OIG reported that
although the TSC had made significant strides in becoming the
government’s single point-of-contact for law enforcement authorities
requesting assistance in identifying individuals with possible ties to
terrorism and had developed a consolidated terrorist watchlist database,
the TSC had not ensured that the information in that database was
complete and accurate. For example, we found instances where the
consolidated database did not contain names that should have been

       20
            As of June 2007, the TSC had 323 personnel on board.
       21
         Department of Justice, Office of the Inspector General, Review of the Terrorist
Screening Center, Audit Report 05-27, June 2005.
                                           -1–

                           REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


included on the watchlist. In addition, we found inaccurate or inconsistent
information related to persons included in the database. In that review,
we also found problems with the TSC’s management of its information
technology (IT), an integral part of the terrorist screening process.

       TSC officials attributed some of these deficiencies to the immediate
need during the earliest days of the TSC to develop a comprehensive
database of potentially high-risk suspects. TSC officials explained that
blending different types of data in various formats from multiple sources
with varying technological infrastructures had resulted in data
inconsistencies and inaccuracies. In addition, technology challenges and
frequent record additions, deletions, and modifications affected the TSC’s
ability to ensure the quality of the watchlist data. Our report included
40 recommendations to the TSC addressing areas such as database
improvements, data accuracy and completeness, and staffing.

      The purpose of our current follow-up review of the TSC was to
determine if accurate and complete records are disseminated to and from
the watchlist database in a timely fashion, as well as to assess the TSC’s
current processes for ensuring the quality of the known or suspected
terrorist information. Further, we examined the TSC’s efforts to minimize
the impact on individuals misidentified as watchlist subjects.

Purpose of the Consolidated Watchlist

       One goal of the nation’s counterterrorism efforts is to identify
suspected terrorists and keep them out of the United States and from
harming U.S. citizens both at home and abroad. An essential element of
these efforts is the maintenance of a consolidated watchlist containing the
names of known and suspected terrorists. This consolidated watchlist should
include the most current and complete information and not contain
inaccurate, inconsistent, or inappropriate information. Further, similar
names and limited information in the watchlist can impair a frontline
screening agent (such as a border patrol officer, visa application reviewer, or
local police officer) from distinguishing between a suspected terrorist and a
mistakenly identified individual. Deficiencies in the terrorist watchlist
information also increase the opportunity for a terrorist to go unnoticed or
not be properly handled when encountered. Additionally, inadequate
information increases the possibility of individuals being misidentified as
terrorist watchlist subjects and thereby being detained for more rigorous
screening procedures.




                               -2-
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Overview of Watchlist Nomination and Screening Processes

       When a law enforcement or intelligence agency has identified an
individual as a potential terrorist threat to the United States and wants that
individual watchlisted, the source agency must nominate that person for
inclusion in the consolidated watchlist maintained by the TSC. Similarly, as
additional information is obtained that either enhances the identifying
information or indicates that the individual has no nexus to terrorism, the
record should be either updated or deleted.

       All nominations from source agencies to the consolidated watchlist are
vetted through the FBI or the National Counterterrorism Center (NCTC). 22
Analysts at NCTC or the FBI review the nomination information and decide
whether or not the person is an appropriate candidate for inclusion on the
consolidated watchlist. This review includes an evaluation of the information
supporting the nomination, an examination of the quality and accuracy of
the identifying information, and an examination of whether sufficient
identifying information is available. 23 The FBI and NCTC are responsible for
providing the TSC an unclassified subset of identifying information for
individuals known or suspected to be or have been involved in activities
related to terrorism. 24




       22
           As stated in the TSC MOU, source agencies responsible for U.S.
counterintelligence, counterterrorism, and law enforcement provide information to the FBI
and NCTC on suspected or known terrorists who are nominated for inclusion on the
consolidated terrorist watchlist maintained by the TSC. The FBI is responsible for
submitting to the TSC all domestic terrorist identity nominations, and NCTC is responsible
for international terrorist identity nominations. While the FBI is a source agency for
domestic and international terrorist information; it forwards relevant information to NCTC on
suspected or known international terrorists. Domestic terrorist information is defined as
information about U.S. persons that has been determined to be purely domestic terrorism
information with no link to foreign intelligence, counterintelligence, or international
terrorism.
       23
           The TSC’s general criterion for including a record on the consolidated watchlist is
that the nominating agency must have provided evidence of a nexus to terrorism. From a
data perspective, the minimum criteria for inclusion of a terrorist identity into the TSDB are
that the record contains at least a partial name (e.g., given name, surname, or both) and at
least one additional piece of identifying information (e.g., date of birth).
       24
          The TSC also has an emergency nomination process, which is used when there is
an imminent threat and a watchlist record needs to be highlighted or created quickly.
Under the emergency process, a requesting agency informs the TSC directly and the TSC
adds the individual to the consolidated watchlist. The TSC then forwards all the information
gathered on the subject to NCTC for subsequent additional vetting and creation of a record
at NCTC.

                                   -3-
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


       The TSC shares the terrorist information contained in its Terrorist
Screening Database (TSDB) by exporting or sending data “downstream” to
other screening systems, such as the State Department’s Consular Lookout
and Support System (CLASS), DHS’s Interagency Border Inspection System
(IBIS), the Transportation Security Administration’s (TSA) No Fly list, the
FBI’s Violent Gang and Terrorist Organization File (VGTOF) within its
National Crime Information Center (NCIC) system, and others. 25 Watchlist
information is then available for use by U.S. law enforcement and
intelligence officials across the country and around the world.

       Personnel working for these organizations routinely encounter
individuals as part of their regular duties during various government
processes. For example: (1) DHS agents of the U.S. Customs and Border
Protection (CBP) agency examine individuals at various U.S. ports-of-entry
and search IBIS to determine if a person can be granted access to the
United States, (2) State Department officials process visa applications from
non-U.S. citizens wishing to visit the United States and search CLASS to
determine if the individual should be granted a U.S. visa, and (3) state and
local law enforcement officers review the identifying information of
individuals encountered through the criminal justice system and query the
FBI’s NCIC system. In turn, these databases contain terrorist watchlist
records so that the federal, state, and local law enforcement screening
agents can identify persons that the U.S. government has determined are
known or suspected terrorists.

     An overview of the flow of watchlist information from nominating
agencies to the TSC and ultimate distribution to downstream screening
databases is displayed in Exhibit 1-1.




      25
           NCIC is a nationwide information system maintained by the FBI that provides the
criminal justice community with immediate access to information on various law
enforcement data, such as criminal history records and missing persons. The FBI’s Criminal
Justice Information Services Division is responsible for managing the NCIC database. A
description of each of the downstream screening systems is contained in Appendix II.

                                  -4-
                       REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


                                  EXHIBIT 1-1
                     Terrorist Watchlist Dataflow Diagram 26


                         NCTC


                  International Terrorist
                       Information



                                                           TSC
  Source/                                                                       Downstream
 Nominating                                            Consolidated              Screening
  Agencies                                          Terrorist Watchlist          Databases



                           FBI

                  Domestic Terrorist
                    Information




Source: The National Counterterrorism Center

Screening Activities and Hits Against the Terrorist Watchlist

        When a name appears to be a match against the terrorist watchlist,
requestors receive a return message through their database informing
them of the preliminary match and directing them to call the TSC. When a
call is received, TSC staff in the 24-hour call center assist in confirming the
subject’s identity.

      To do this, the TSC Call Center staff search the TSDB and supporting
databases to locate any additional information that may assist in making a
conclusive identification. The caller is immediately informed of any
negative search result – such as the subject of the inquiry does not match
the identity of an individual on the watchlist.

       In general, if the subject is positively identified as a watchlist hit or
the match attempt is inconclusive, the TSC call screener forwards the call
to the FBI’s Terrorist Screening Operations Unit (TSOU), the FBI’s 24-hour
global command center for terrorism prevention operations. The TSOU is
then responsible for making further attempts to confirm the subject’s
identity and, if necessary, coordinating the law enforcement response to
the encounter, including deploying agents to take appropriate action.

       26
          A diagram providing a more detailed look at the flow of data in the
U.S. government’s terrorist watchlisting process is located in Appendix III.

                                    -5-
                         REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


       Not all encounters are face-to-face. According to State Department
officials at the TSC, when a person located overseas submits an application
for a visa, State Department officials search the CLASS database, which
receives watchlist information from the TSC. If the search reveals a possible
identity match with an individual recorded in the TSDB, the official sends the
TSC a cable (a secure, electronic communication). A State Department
representative at the TSC reviews the cable along with information from
supporting agency databases to determine if the person requesting a visa is
an individual with ties to terrorism. This information is then used by U.S.
government officials overseas to either process or deny the application.

TSC Encounter Management

       To manage information related to “hits” or possible matches against
the watchlist, called “encounters,” the TSC uses a software application,
called the Encounter Management Application (EMA). This system was
implemented in July 2004 and includes a record of all encounters since the
inception of the TSC. EMA contains the details of all incoming calls,
including information about the inquiring law enforcement agency, the
databases the TSC staff searched and the information obtained from these
systems, the status of the TSC’s efforts to confirm an identity match against
a watchlist record (i.e., positive, negative, or inconclusive), whether the
caller was forwarded to TSOU for further action, and the final disposition of
the call. For every inquiry that TSC call screeners refer to the TSOU, the
TSC screeners are responsible for obtaining feedback on the disposition of
the encounter, such as whether the subject was arrested, questioned, or
denied entry into the United States.

      EMA provides the TSC with the ability to generate detailed statistics
and prepare reports for analysis. Daily status reports are generated from
EMA identifying the specific call information, which is reviewed by the TSC’s
Tactical Analytical Team to identify patterns or threatening circumstances.
If any such patterns are identified, the TSC forwards this information to the
appropriate intelligence and law enforcement agencies for further review.




                               -6-
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


       As of April 2007, the                          EXHIBIT 1-2
TSC Call Center had                         Watchlist Encounters Referred to
recorded nearly                           the TSC Call Center by Organization
97,000 watchlist encounters             (December 1, 2003, through April 30, 2007)
referred by screening                                      Number of      Percent of
                                     Referring Agency
agencies since its creation in                              Referrals     Referrals
December 2003. More than             DHS – CBP               58,266           60
50 percent of this total             Other Federal           19,965           21
resulted in a positive               State and Local         17,967           19
identity match. As shown in          Foreign Government         513           <1
Exhibit 1-2, 60 percent of           Total                   96,711         100%
                                     Source: The Terrorist Screening Center
the total calls received by
the TSC Call Center originated      from the U.S. Customs and Border Protection
agency.

Number of Terrorist Watchlist Records

       Since the creation of the TSC in December 2003, the number of records
in the consolidated U.S. government watchlist of known or suspected terrorists
has significantly increased. We compiled a summary of available database
size information, which illustrates the continued growth of the watchlist.

      According to TSC officials, there were approximately 150,000 records in
the TSDB in April 2004. 27 TSC data indicate that by July 2004 the number of
records had increased to about 225,000 records, representing approximately
170,000 unique terrorist identities. Eighteen months later, in February 2006,
the TSC reported that the database contained approximately 400,000 records.
Most recently, information we obtained from the TSC indicates that the TSDB
contained a total of 724,442 records as of April 30, 2007. The vast majority of
these records are international terrorist records – less than 1 percent of
records related to the identities of suspected domestic terrorists. As shown in
Exhibit 1-3, the number of watchlist records contained in the TSDB has more
than quadrupled since its inception in 2004.




      27
           The reported figure represents the number of records in the system. This does
not equate to the number of known or suspected terrorists in the system as a single person
may have multiple records to account for the use of aliases, alternate identities, and
multiple identifying documents. As such, the number of records generally will be larger
than the number of suspected or known terrorists on the watchlist.

                                  -7-
                       REDACTED FOR PUBLIC RELEASE
                                 REDACTED FOR PUBLIC RELEASE


                                            EXHIBIT 1-3
                                Number of Terrorist Watchlist Records


               April 2004




               July 2004
   DATE




          February 2006




               April 2007



                            0          200,000    400,000    600,000        800,000

                                                 RECORDS

 Source: OIG analysis of Terrorist Screening Center data

Handling Instructions

      Each record within the consolidated watchlist database is designed to
contain information about the law enforcement action to be taken when
encountering an individual on the watchlist. This information is conveyed
through two separate “handling codes” or instructions – one handling code
for the FBI and one for the DHS.

      FBI Handling Codes - each individual nominated for inclusion in the
FBI’s screening database, National Crime Information Center’s (NCIC)
Violent Gang and Terrorist Organization File (VGTOF), is assigned a code
used to provide instruction for handling the individual. These codes are
assigned based on whether there is an active arrest warrant, a basis to
detain the individual, or an interest in obtaining additional intelligence
information regarding the individual. 28 Following are the definitions for each
code.

               •   Handling Code 1 - [SENSITIVE INFORMATION REDACTED]

               •   Handling Code 2 - [SENSITIVE INFORMATION REDACTED]

          28
           Practices and procedures regarding one handling code are classified Secret, and
are not, therefore, discussed here.

                                            -8-
                                 REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE



            •   Handling Code 3 - [SENSITIVE INFORMATION REDACTED].

      All records in the consolidated watchlist database that are eligible for
export to VGTOF should have a handling code assigned. Based on our
review, we determined that all eligible records contained in the TSDB
contained a VGTOF handling code. As depicted in Exhibit 1-4, the majority
of the records in the TSDB are designated as Handling Code 3.

                                    EXHIBIT 1-4
                       Distribution of VGTOF Handling Codes
                              (as of March 6, 2007) 29


                                                     Other
                                                  2,555, 0.6%


                                                          Handling Code 1
                                                            8,701, 2.1%
                       Handling Code 3
                        404,647, 96.8%
                                                  Handling Code 2
                                                    2,270, 0.5%



                Source: The Terrorist Screening Center

       DHS Handling Instructions – each individual nominated for inclusion in
the DHS’s screening database is assigned one of three codes that provide
instructions to law enforcement officials at ports-of-entry. According to TSC
officials, each instruction requires the individual to receive additional
screening. However, one code provides a less intrusive method for handling
known or suspected terrorists because the law enforcement officer is
directed to not meet the individual at the arriving plane and not alert the
subject of his or her possible watchlist status. Based on our review, we
determined that all eligible records in the TSDB contained an IBIS handling
instruction. As shown in Exhibit 1-5, approximately 5 percent of the records
in the TSDB that are eligible for export to IBIS are designated with this
special handling instruction.




       29
           The other category relates to the handling code practices and procedures that are
classified at the Secret level.

                                   -9-
                        REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE

                                  EXHIBIT 1-5
                  Distribution of IBIS Handling Instructions
                             (as of April 30, 2007)
                                                   Lost or Stolen
                                                     Passport
                                                        2,836
                                                         0%

                       Standard
                        676,533                         Special
                                                         34,623
                         95%
                                                          5%




          Source: The Terrorist Screening Center

OIG’s Audit Approach

       The objectives of this OIG audit were to: (1) determine if accurate
and complete records are disseminated to and from the watchlist database
in a timely fashion; (2) review the TSC’s efforts to ensure the quality of the
information in the watchlist database; and (3) assess the TSC’s efforts to
address complaints raised by individuals who believe they have been
incorrectly identified as watchlist subjects.

       To accomplish these objectives, we interviewed more than 45 TSC
officials, including the Director, the former Acting Director and Deputy
Directors, as well as officials at NCTC, the FBI, and DHS. In addition, we
interviewed participating agency representatives and toured facilities to
ensure that we obtained a detailed understanding of the working
relationships utilized, assistance provided, and communication flow during
the terrorist screening process.

      To evaluate the accuracy and completeness of the consolidated
watchlist, we divided our review into two separate tracks. First, we analyzed
the consolidated database as a whole, including a review of the number of
records in the database, any duplication that existed within those records,
and the associated watchlist processes. Second, we tested individual
records within the database for accuracy and completeness. This included
reviewing a sample of FBI and other government agency nominated
domestic and international terrorist records and tracing these records to the
TSDB to determine if the individuals were included in the database and that


                                 - 10 -
                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


the information was accurate, complete, and consistent. In addition, we also
checked whether known terrorist names were in the database.

      To assess the TSC’s efforts to ensure the quality of the information in
the watchlist database, we examined the TSC’s quality assurance activities
and reviewed records subjected to these processes. We also examined the
timeliness of the TSC’s efforts to resolve matters arising from its review of
the accuracy and completeness of the data. This included an evaluation of
the TSC’s progress to conduct a system-wide, record-by-record review and
to improve its quality control processes as a result of recommendations in
our previous audit.

      To fulfill our third objective, we examined the TSC’s policies and
procedures for handling inquiries related to individuals who raised
complaints following their involvement in a screening encounter. This
process is referred to as redress. We evaluated the TSC’s efforts to
coordinate redress response efforts with other participating agencies,
reviewed a sample of redress inquiries, and assessed the timeliness of the
TSC’s responses to redress inquiries.

     Detailed information regarding our audit objectives, scope, and
methodology is contained in Appendix I.




                               - 11 -
                    REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


                 FINDINGS AND RECOMMENDATIONS

I.    DATA ACCURACY AND TIMELINESS

      Our prior audit in June 2005 found that the TSC was operating
      two vastly different versions of the TSDB and the TSC lacked
      sufficient internal controls to ensure the integrity of the
      databases, resulting in names excluded from the watchlist and
      inaccurate and incomplete records. In our current review, we
      found that the TSC was operating two versions of the TSDB in
      tandem and the TSC had not taken adequate steps to ensure
      that the content of the two databases was identical. Further, we
      found significant numbers of duplicate records. In addition,
      because of internal FBI watchlisting processes, we found that the
      FBI bypasses NCTC and the TSC and enters a nomination into a
      downstream screening system prior to submitting the
      nomination to NCTC. As a result, the TSC is unable to ensure
      that consistent, accurate, and complete terrorist information is
      disseminated to frontline screening agents in a timely manner.
      Moreover, the TSC had determined that the TSDB contained over
      2,000 watchlist records that did not belong in the database. This
      TSC review also identified at least eight records that were
      missing from the downstream databases and were therefore not
      available to frontline screening agents. While we recognize that
      no process will be perfect, omissions of a terrorist identity, as
      well as the existence of inaccurate, incomplete, or outdated
      watchlist records can have significant ramifications. Our findings
      indicate that the TSC needs to further improve its controls over
      the TSDB to help ensure the integrity and effectiveness of the
      watchlist.

Structure of the TSDB

       In concert with NCTC’s implementation of its Terrorist Identities
Datamart Environment (TIDE) database, the TSC developed a web-based
version of the TSDB called the Nomination Tracking Processor (TSDB NTP) in
March 2005. As shown in Exhibit 2-1, the TSDB NTP facilitates the receipt of
data from NCTC, provides direct connectivity to the NCIC VGTOF data
system, and enables the initiation and monitoring of data quality assurance
efforts of the TSC. 30 However, the TSDB NTP system is unable to export
watchlist data to most screening agencies or process expedited and domestic

      30
         Direct connectivity to the NCIC VGTOF system and quality assurance functionality
were established in May 2005 and March 2006, respectively.

                                  - 12 -
                       REDACTED FOR PUBLIC RELEASE
                            REDACTED FOR PUBLIC RELEASE


terrorist nominations into the TSDB. As a result, the TSC has retained a
legacy version of the TSDB to accommodate these processes. 31 These two
versions of the TSDB are interconnected to help ensure that nominations are
properly exported to downstream watchlist agencies.

                                        EXHIBIT 2-1
                                 TSDB Operating Environment

                                              Customers                    TSC
             NCTC
            IT Input                                                TSDB - NTP
                                                 VGTOF
                                                               Web based
              TIDE                                             Receives data from NCTC and
              XML                                              gives feedback to NCTC
            Nomination              TSDB                       Contains Single Review Queue
                                   (WEB)                       Contains Reports
               File
                                                               Exports to VGTOF
                                                               Sends data to TSDB (Legacy)
                                               CLASS-VISA


                                                CLASS-PPT
                                                                  TSDB (Legacy)
                                                               Receives data from TSDB
            FBI / TSC                            Redacted      (NTP)
             DT Input              TSDB                        Exports to several customers
             Expedited            (Legacy)                     Enables records to be entered
                                                 Redacted
             Nominations                                       manually into TSDB

                                                   TSA


                                                   IBIS



   Source: The Terrorist Screening Center


      TSC officials stated that while this operating environment is not
optimal, they needed to maintain the legacy version of the TSDB because
the TSDB NTP is unable to process expedited nominations or connect
electronically with all of the related downstream screening databases. With
two versions of the TSDB, however, it is critical that the TSC maintain strong
controls to ensure that each name nominated for inclusion in the TSDB NTP
is appropriately included in the legacy version and accurately marked for
export to the relevant downstream supporting systems in a timely manner.

     However, we determined that the TSC did not implement the
necessary controls to ensure that both databases contained a complete and
accurate version of the terrorist watchlist. Specifically, the NTP and legacy
databases were not synchronized, which caused inconsistent record counts
between the two systems. As a result, names were omitted from the
downstream screening databases. In addition, we noted that records had

       31
           In June 2004, the TSC upgraded its original watchlist, which facilitated the
electronic exchange of data with participating agencies’ systems.

                                       - 13 -
                            REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


been inappropriately maintained in the TSDB without any watchlist
designation. These findings are discussed in detail below.

Inconsistent Record Counts

       At the beginning of this audit, we were informed by the TSC Chief
Information Officer (CIO) that the NTP and legacy versions of the TSDB were
interconnected to help ensure that the watchlist was properly exported to
frontline screening agencies. Therefore, the two databases should be
identical in content and should contain the same number of records.
However, on March 16, 2007, we found that the TSDB legacy database had
689,631 records while the NTP had 689,613 records – a difference of
18 records. Although the difference is a small portion of the universe of
records, omitted records can result in a missed opportunity to identify a
known or suspected terrorist.

      We brought the record discrepancy to the attention of the TSC CIO,
who said he was surprised to learn that the systems were not in balance.
Upon further review, the CIO learned and reported to us that the IT staff at
the TSC was aware that the record counts sometimes varied. Despite the
increased risk created by continual transactions between the two databases
as well as recent system modifications, the TSC IT staff did not appear to
have examined the differences, researched a valid explanation for the
discrepancies, or sought a correction for whatever condition was causing the
record counts to be out of balance.

      Through subsequent analysis, on March 26, 2007, the TSC determined
that the record difference between the two databases had increased to
38 records – 5 records were missing from the TSDB legacy system while at
the same time it contained an additional 33 records that were not in the
TSDB NTP system. These omissions and inaccuracies resulted from
problems in a number of different areas.

      Records Missing from the TSDB Legacy Database

       Because the TSDB legacy database facilitates the export of data to
downstream screening databases, any information that is missing from the
system is not made available to all appropriate law enforcement and
intelligence officials for screening of persons against the watchlist. As a
result of our review, the TSC identified five records that were missing from
the TSDB legacy system, which caused the exported watchlist to be
incomplete.

      •     One record, nominated on December 22, 2006, was never
            transmitted from the TSDB NTP system. As a result, this known
                               - 14 -
                    REDACTED FOR PUBLIC RELEASE
            REDACTED FOR PUBLIC RELEASE


    or suspected terrorist record was not watchlisted for over
    3 months. TSC officials were unable to determine why the
    record was not sent. However, as a result of our review, the
    TSC subsequently added this record to the watchlist.

•   Three records nominated on March 5, 2007, were transmitted by
    the TSDB NTP system but were never imported into the TSDB
    legacy system. According to TSC officials, the import process for
    the file containing these records was interrupted. The individual
    processing the file should have received a notification that the
    process failed. However, because multiple files are processed
    each day, TSC officials could not readily identify who processed
    the file nor provide an explanation as to why corrective action
    had not been taken. The TSC CIO stated that as a result of our
    review, the TSC has taken corrective action by modifying the
    software so that if the transfer process is interrupted again and
    the user restarts the program, the application returns to the last
    successfully imported identity and restarts the process to ensure
    that no records are lost by the interruption.

•   On December 20, 2006, the NTP system appropriately processed
    a request for the deletion of one record. However, the record
    was not deleted from the TSDB legacy system at the same time.
    As a result, this name continued to be inappropriately exported
    to downstream screening databases for nearly 2 months. On
    February 6, 2007, the individual was re-nominated by NCTC
    through the TSDB NTP, resulting in the two systems being
    synchronized for this record. On February 21, 2007, the original
    request for deletion was inappropriately processed in the TSDB
    legacy system resulting in the name not being watchlisted for
    approximately 1 month until we brought it to the TSC’s attention
    in early March 2007.
    TSC officials explained that earlier versions of the TSDB legacy
    database could not process multiple actions for a single record,
    such as both a modification and a deletion, within one daily
    import file. TSC officials also theorized that for this record it
    appears that the December 20, 2006, file contained both a
    modification and a deletion. Because the TSDB legacy system
    processed the modification first, the deletion did not process,
    remained within the queue, and was processed 2 months after it
    was submitted. TSC officials stated that they have modified the
    processing order of the queue to prevent this anomaly from
    occurring again.

                       - 15 -
            REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


       Additional Records in the TSDB Legacy Database

      As a result of our review, the TSC identified 33 additional records
contained within the TSDB legacy system that were omitted from the TSDB
NTP system. According to TSC officials, the errors associated with each of
the 33 records resulted from deficient historical data and technological
complications. 32 TSC officials agreed that none of the records should have
been included in either database. TSC officials stated that they have now
ensured that these records have been submitted to the internal quality
assurance unit for corrective action.

Inaccurate Display of Watchlist Designation

       The State Department’s Consular Lookout and Support System
(CLASS) is one of the downstream screening systems that receives watchlist
information from the TSDB. CLASS consists of two modules – CLASS/Visa
and CLASS/Passport, which are used for processing visa and passport
applications. According to State Department policies, individuals who are
designated as a U.S. citizen or a U.S. person are ineligible for inclusion in
the CLASS/Visa module. 33 Non-U.S. persons are eligible for inclusion in both
CLASS/Visa and CLASS/Passport. Therefore, an individual’s TSDB record
can be exported to CLASS/Visa, CLASS/Passport, or both data systems
based upon their status as a non-U.S. person. The TSC has included these
criteria in the TSDB legacy software to ensure that watchlist records are
correctly nominated and exported to the appropriate CLASS module during
the data transfer process.

       TSC users viewing the TSDB NTP system see check boxes that clearly
identify the downstream screening systems to which each record is
disseminated. However, the series of check boxes includes only one CLASS
box that does not delineate between CLASS/Visa and CLASS/Passport and
has the generic label “CLASS.”

      The TSC plans to correct the CLASS designation in the TSDB NTP
system to appropriately reflect that U.S. persons are not eligible for export
to CLASS/Visa. In addition, as part of its planned system upgrades, the TSC

       32
          Many of these deficiencies are attributable to data inconsistencies and
inaccuracies that resulted from the TSC’s immediate need during its earliest days to develop
a comprehensive database of known or suspected terrorists.
       33
           According to TSC standard operating procedures, a U.S. person is defined as
either: (1) a citizen of the United States; (2) an alien lawfully admitted for permanent
residence; (3) an unincorporated association with a substantial number of members who
are U.S. citizens or are aliens lawfully admitted for permanent residence; or (4) a
corporation that is incorporated in the United States.

                                   - 16 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


intends to modify the TSDB NTP to accommodate designations for both
CLASS/Visa and CLASS/Passport. This will help ensure that once the TSC
begins to use the NTP system to export watchlist records to the downstream
databases, the appropriate records are sent to each of the CLASS modules
and individuals are watchlisted in the correct systems.

Future of the TSDB

      We were told by TSC officials that they intend to streamline the TSDB
by incorporating the functionality of the legacy system into the TSDB NTP
and eliminating the legacy version. To minimize the impact on operations,
the TSC plans to implement the changes in an incremental and phased
approach. TSC officials anticipate that the project will be completed by the
end of calendar year 2007.

      It is essential that the TSC maintain and distribute to frontline
screening agents a complete subset of known or suspected terrorist identity
information. Therefore, the TSC should work aggressively to implement its
plan to consolidate the TSDB NTP and legacy systems. Further, we believe
that for as long as the TSC must maintain its current operating environment,
the TSC must closely monitor the content of each to ensure that the record
counts agree and that all watchlist records are accounted for and
disseminated as appropriate. As a result of our audit, the TSC CIO stated
that he had implemented a policy whereby the contents of the two systems
are reconciled manually on a daily basis.

Records Not Designated for Any Watchlisting

       According to its governing MOU, the TSC is responsible for regularly
reviewing the contents of the TSDB and promptly adjusting or deleting
outdated information. During the course of our review, we were informed by
TSC officials that in September 2006 they had identified 2,682 records that
were not being exported to any downstream screening database. Working
with NCTC, the TSC confirmed that 2,118 of these records did not belong in
the TSDB and needed to be removed from the consolidated watchlist. 34 TSC
officials conducted a manual review of the remaining 564 records and
determined that 8 had not been appropriately watchlisted and needed to be
renominated to the TSDB. 35


      34
          On April 27, 2007, the TSC implemented an information technology solution to
delete these records.
      35
          The TSC determined that the 564 records represented 443 unique identities. As
of June 15, 2007, the TSC had resolved 413 of the 443 records.


                                  - 17 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


      Despite being responsible for removing outdated or obsolete data from
the TSDB, however, the TSC did not have a process for regularly reviewing
the contents of the TSDB to ensure that the database does not include
records that do not belong on the watchlist. TSC officials told us that they
intend to begin performing a periodic review of the database to identify any
records that are being stored in the TSDB that are not being exported to any
downstream systems. We believe it is essential that the TSC regularly
review the TSDB to ensure that all outdated information is removed, as well
as to affirm that all records are appropriately watchlisted.

FBI Procedure for Processing Watchlist Data

       The FBI’s Terrorist Review and Examination Unit (TREX) receives
requests from FBI agents to include individuals with known or suspected ties
to terrorism on the terrorist watchlist. These requests are provided on
nomination forms, which are also used to modify previous submissions or
remove records from the watchlist. Analysts at TREX review the nomination
information for accuracy and completeness. Once verified, nomination forms
for known or suspected domestic terrorists are electronically forwarded to
the TSC where a TSC analyst manually enters the information into the TSDB.
This information is electronically distributed to the downstream screening
agency data systems, including the FBI VGTOF, part of the NCIC system.

       By contrast, once the TREX analyst verifies an FBI-generated
international terrorist nomination, the analyst enters the information into
VGTOF directly and then submits the nomination form to NCTC. Following
its review and vetting, the NCTC analyst manually enters the information
into its database – TIDE – that in turn feeds the information to the TSDB.
Because TREX has already entered the record into VGTOF, it is not
necessary for the TSC to export the record it receives from TIDE to VGTOF.
Therefore, these records are not exported from the TSDB to VGTOF. 36
Because these VGTOF records will not receive electronic modifications or
deletions from the TSDB, the TSC and TREX have agreed that TREX will be
responsible for ensuring FBI-originated international watchlist records in
VGTOF are accurate, complete, and current.

      The FBI’s direct entry of international terrorist watchlist nomination
data into a downstream screening database bypasses NCTC and the TSC
and makes it difficult for these agencies to carry out their responsibilities
related to watchlist nominations and records. In our opinion, this process

       36
          To alert the TSC of this non-standard entry of records into the TSDB, the TSC
implemented a special flag, referred to as “FBI sole source,” for FBI-originated international
records. This designation precludes all future electronic transactions, including related
modifications and deletions, from being exported from the TSDB to VGTOF.

                                   - 18 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


does not comport with the nomination and data flow procedures outlined in
the MOU and agreed to by the partner agencies, which requires agencies to
provide directly to NCTC, rather than directly into a downstream database,
information related to known or suspected international terrorists.
Additionally, we believe the FBI’s practice is cumbersome for the TSC and
creates unnecessary data errors, anomalies, and inconsistencies as
described below.

       To test for data accuracy and consistency, we reviewed a judgmental
sample of 50 FBI-originated additions or modifications to the watchlist. 37
We found that while the records for the domestic terrorist nominations were
generally accurate, the international terrorist nominations were not. We
identified 16 records with 28 instances in which the identifying information
related to international terrorists was inconsistent between the nomination
form, VGTOF, TIDE, TSDB, or other screening systems. According to
TSC personnel, TREX analysts frequently augment the data on the
nomination forms with information they glean from FBI case files and enter
this additional information into the VGTOF system. However, this
supplemental case information is not forwarded to NCTC and as a result the
information is not included in TIDE, not sent to the TSDB, and not made
available, if appropriate, to downstream screening systems. Further,
because TREX enters the record into VGTOF before the addition of any other
existing information from other government databases to which NCTC has
access, this additional information is often not included in VGTOF. As a
result, vital information on watchlist subjects is not being shared with all
appropriate screening agencies.

      In addition, we found that the FBI’s procedures for processing
international terrorist watchlist nominations are cumbersome for the TSC
and can inadvertently create an incomplete watchlist. The difference in
procedures between the FBI’s and other agencies’ watchlist nominations
requires TSC analysts to review every incoming international terrorist
nomination and indicate within the record whether it is an FBI source
record. If a terrorist watchlist record is improperly designated as an FBI
source record, the subset of terrorist watchlist records in VGTOF will be
incomplete because that record will not be exported to or modified within
VGTOF. TSC staff told us that they were also concerned about this because,
when reviewing nominations from NCTC, it is often difficult to distinguish
between FBI source records and nominations received from other agencies.
TSC staff stated that there was a period of time (possibly as long as a year)
in which many records had been improperly designated as an FBI-originated

       37
          The total sample of 50 records consisted of 25 each for domestic and
internationally known or suspected terrorists.

                                  - 19 -
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


record or not. In March 2007, the TSC and NCTC addressed this problem by
developing a method to permit TSC analysts to more easily identify FBI
source records.

      In response to these concerns, FBI officials informed us that they had
implemented nomination procedures to ensure that FBI international
terrorist information was entered into VGTOF in the most efficient manner.
Yet, our review of 70 FBI record transactions (50 nominations previously
mentioned and 20 deletions) revealed that although the transactions were
entered into VGTOF in a timely manner, the transactions were not
incorporated in the TSDB in a timely fashion. 38 Specifically, 18 of the
70 transactions took more than 5 days for TREX to process, with
1 transaction taking 35 days. In addition, we identified 2 instances in which
TREX erroneously delivered nomination forms for domestic terrorists to
NCTC that resulted in delays of 6 and 16 days, respectively.

      Delays in including terrorist information in the consolidated database
present a significant vulnerability to the integrity of the consolidated
watchlist. Further, the FBI’s current practice of bypassing NCTC and the
TSC and entering international terrorist-related data directly into VGTOF
increases the likelihood that watchlist information within the TSDB, TIDE,
VGTOF, and other downstream databases is inaccurate and incomplete. As
a result, we recommend that the FBI, NCTC, and TSC work together to
design a more consistent and reliable process by which FBI-originated
international terrorist information is provided to NCTC for inclusion in TIDE
and disseminated to the TSDB and downstream screening systems,
including VGTOF.

Duplicate Records

       As shown in Exhibit 2-2, the TIDE and TSDB systems store all
information known about an individual in a single “identity” record using
five core identifying fields, including [SENSITIVE INFORMATION
REDACTED]. However, the downstream screening agency data systems do
not store information at the identity level. Rather, the identity information
is split into separate watchlist records to reflect unique combinations of the
five core fields.




      38
          Officials from NCTC, the TSC, and TREX stated that each agency attempts to
process nominations to the watchlist within 1 day.

                                  - 20 -
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE

                                    EXHIBIT 2-2
                                  Record Overview




                     [SENSITIVE INFORMATION REDACTED]




Source: The Terrorist Screening Center

       Multiple records containing the same unique combination of
identifying information can increase the number of records that a call
screener must review when researching a specific individual. In addition,
when multiple records for a single identity exist, it is essential that
identifying information and handling instructions be consistent. Otherwise,
the screener may mistakenly rely on one record while a second, more
complete or accurate record may be ignored. This can result in important
information being missed. Further, inconsistent handling instructions may
pose a safety risk for law enforcement officers.

       In our June 2005 report, we identified 31 instances in which 5 core
identifying fields were the same and recommended that the TSC implement
corrective action to address the duplicate records and develop an ongoing
process to review the TSDB for duplicate records.

       In our current audit, we identified a significant increase in duplicated
records – 2,533 repeated combinations in these 5 fields involving over
6,262 watchlist records. For example, one unique combination of the 5 core
fields had 19 associated records.

      In response to the apparent duplicates we identified, TSC officials
explained that the duplicates were the result of multiple TIDE identity
records for a single individual, system-generated duplicate records, and

                                  - 21 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


improperly processed expedited nominations. TSC officials stated that, while
they did not have an ongoing process by which they reviewed the TSDB for
duplicate records, as a result of our finding the TSC will review the TSDB on
a weekly basis for duplicate records. The results will be forwarded to the
TSC’s internal quality assurance unit for further review and action.

Multiple Identity Records for the Same Individual

      Of the 2,533 instances in which the core identifying fields were the
same, TSC stated that most were not necessarily duplicate records. Rather,
because the records have different TIDE record numbers, the TSC was
unable to independently determine whether these records were duplicates.
TSC officials explained that NCTC has indicated to them that many of these
occurrences are inherent to old data. For example, prior to the
implementation of HSPD-6 in 2003, both the FBI and the State Department
may have maintained information regarding a single terrorist identity.
During the blending of all sources of international terrorist information, both
records may have been included in the TIDE data system resulting in
duplicated data. In addition, TSC officials explained that some terrorist
information remained classified and, as a result, could not be linked to
unclassified data. 39 To ensure that the most complete subset of unclassified
information was disseminated, NCTC created multiple identity records for
some individually known or suspected terrorists. As a result, rather than the
optimal one identity record with multiple watchlist records, some individuals
have multiple identity records that contain multiple identical watchlist
records.

       Through additional data analysis of the duplicate records we identified,
the TSC identified at least one instance in which both the FBI and another
government agency nominated the same individual. Because both records
pertain to the same individual, the identifying information and instructions
for handling the subject should be consistent. However, we identified
significant differences in the handling instructions and warnings for the
individual. Specifically, one record indicated that the individual was “armed
and dangerous with violent tendencies” and also had a valid federal arrest
warrant. The other record did not contain this information. Moreover, our
analysis of the instances in which the five identifying fields were the same
indicates that at least 20 percent have some discrepancy in handling
instruction, identifying information, or watchlist export designation. These

       39
           By August 2004, the Attorney General, the Director of Central Intelligence, and
the Secretaries of Homeland Security, State, Treasury, and Defense signed Addendum A to
the original governing MOU. Addendum A contained provisions for the declassification and
sharing of terrorist information, including [SENSITIVE INFORMATION REDACTED].
However, the provisions only covered information obtained after August 2004.

                                   - 22 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


descriptions and instructions are used by frontline law enforcement
personnel to assess and determine the level of threat posed by the individual
encountered and help to protect themselves and others. Therefore, it is
essential that this information be accurate and consistently applied to all
records related to one individual.

       Because these multiple records occur in TIDE, the TSC believes the
review of the 2,533 possible duplicates more appropriately falls to NCTC. In
June 2006, NCTC implemented an Identity and Person Merge project.
Through this project, NCTC intends to resolve the duplication of identity data
across multiple TIDE identity record numbers. However, until the identity
information is consolidated, NCTC analysts should apply new information for
an existing individual to each TIDE identity record for the individual.
Through this process, NCTC intends to ensure that users of TIDE do not miss
information about an individual that is potentially relevant to their work
because they viewed the “wrong” TIDE identity when conducting their
analysis. NCTC and the TSC anticipate that NCTC initiatives will help to
alleviate many of these multiple identity records. However, until corrected
we believe that these multiple records can affect a screening agent’s ability
to protect against terrorism and can also pose significant risks to the safety
of frontline law enforcement officers.

System-Generated Duplicates

       According to TSC officials, the TSDB should not contain multiple
watchlist records for a single identity from TIDE with identical information in
the five core identifying fields. We determined that the TSDB contained one
TIDE identity with two associated watchlist records with duplicated
identifying information. The TSC determined that these two records resulted
from a nomination from NCTC in February 2005 in which the two records
were either improperly included in the daily import file or an error occurred
during the import process on that day. Based on our review, the TSC
submitted this record to its internal quality assurance unit, and the duplicate
record was deleted.

Expedited Nominations

      When the TSC is informed about an individual who poses an imminent
threat, it creates an “expedited” watchlist record directly into the TSDB. The
TSC then forwards all of the information gathered on the subject to NCTC or
the FBI for subsequent creation of a record through the standard nomination
process. Once the record is submitted through the standard processes, the
original expedited record should be deleted. However, our review of the
duplicate record issue identified three expedited records that had been


                               - 23 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


improperly processed and not deleted from the TSDB after the record was
submitted through the standard nomination process.

      According to TSC officials, these duplicated records (the expedited and
subsequent routine nomination) should contain identical information. Our
analysis revealed two instances in which either an additional date of birth or
passport number was missing. According to the TSC CIO, these three
expedited nominations have been submitted to the TSC’s internal quality
assurance unit for further review, and the duplicated records have been
deleted.

Inclusion of Known Terrorists in the TSDB

       We also performed limited testing on the TSDB to examine the
completeness of the watchlist by determining if known terrorists were
included in the consolidated database. We selected for our review a total of
49 names: 10 from NCTC, 4 from news media accounts, 17 from the FBI’s
Most Wanted list, 16 from the State Department’s List of Terrorists under
Executive Order 13224, and 2 from the Rewards for Justice website. 40 We
searched the TSDB for these 49 names, and found that each was recorded in
the TSDB. TSC officials also said they regularly checked their database
against names reported in the news, broadcast on television, or included on
lists such as the FBI’s Most Wanted.

      However, our review of the 49 known terrorist names also revealed
that the handling instructions for individuals from the FBI’s Most Wanted list
had significant discrepancies. Specifically, two VGTOF records indicated that
the watchlist subjects were armed and dangerous, but the TSDB records did
not reflect this handling instruction. In addition, we identified four records
containing discrepancies in identifying information between TIDE and TSDB.
As previously discussed, it is essential that the TSC ensure that individuals
are properly and consistently recorded in the TSDB and downstream
screening systems, so that appropriate actions are taken if the individual is
encountered by a frontline screening agent.

Conclusion

      It is critical that the TSC ensure that the TSDB contains comprehensive
information and that each watchlist record is appropriately disseminated to
downstream screening systems in a timely manner. While we recognize that


       40
          The State Department maintains a list of the most wanted terrorist organizations
and individuals as specified by Executive Order 13224. The Rewards for Justice website is
an organization operated by the FBI, CIA, DOJ, and the State Department.


                                   - 24 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


no process will be perfect, the potential effect of omissions of a terrorist
identity, or the existence of an inaccurate, incomplete, or obsolete watchlist
record, requires the TSC and its partner agencies to take all available actions
to minimize such errors.

       Despite our identification in our June 2005 audit of deficiencies related
to the TSC’s information technology management and overall database
reliability, our current audit determined that the TSC has not yet
implemented routine processes to ensure that the TSDB contained all proper
watchlist nominations and did not contain duplicate data resulting from
improperly processed records, system malfunctions, and historical data
deficiencies. Moreover, despite being responsible for removing outdated or
obsolete data from the TSDB, the TSC did not have a process for regularly
reviewing and verifying the contents of the TSDB. We believe that it is
essential that the TSC regularly review the TSDB to ensure that all obsolete
and out-of-date information is removed. Finally, because of internal FBI
watchlisting processes, the TSC cannot ensure that accurate and complete
terrorist information has been disseminated to downstream screening
systems in a timely manner.

Recommendations

We recommend that the TSC:

   1.   Implement its plan to consolidate the TSDB NTP and legacy
        databases in a timely manner. In the interim while the two systems
        coexist, the TSC should establish a formal procedure to regularly
        review the TSDB NTP and legacy databases to ensure that the
        information in these systems remains synchronized.

   2.   Develop procedures to regularly review and test the information
        contained in the TSDB to ensure the data is complete, accurate, and
        non-duplicative.

   3.   Modify the TSDB NTP to accommodate designations for both
        CLASS/Visa and CLASS/Passport. In addition, the TSC should review
        and correct the records identified in the TSDB NTP to appropriately
        reflect that U.S. persons are not eligible for export to CLASS/Visa.

   4.   Review and correct the records identified in the TSDB NTP to ensure
        that the IBIS handling instructions are appropriately applied.




                                - 25 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


  5.   Develop procedures to regularly review the information in the TSDB
       to ensure that outdated or obsolete data is removed in a timely
       manner.

We recommend that the FBI:

  6.   Working with the TSC, revise the watchlist nomination process to
       provide international terrorist nominations directly to NCTC for
       inclusion in TIDE, submission to the TSC, and dissemination to all
       downstream databases, including VGTOF.




                               - 26 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


II.   QUALITY ASSURANCE

      Our review indicated that the TSC had the foundations of a
      sound quality assurance plan that will improve the accuracy of
      the TSDB. The TSC is also continuing its efforts to perform a
      record-by-record review of the TSDB. However, we are
      concerned the TSC has not instituted adequate internal controls
      to ensure that its quality control initiatives are properly
      implemented. In addition, the TSC’s quality assurance efforts
      have been hampered by the growth in workload as the size of
      the watchlist increases.

      To test the quality assurance plan, we reviewed 120 TSDB
      records that had been through the TSC’s quality assurance
      process in FYs 2006 and 2007 and identified several instances in
      which the individual was not appropriately watchlisted, as well as
      inconsistencies between the TSDB record and other available
      information. These inconsistencies make it more difficult for
      screening agents to determine if encountered individuals are on
      the watchlist.

Overview of the TSC’s Quality Assurance Process

       In our June 2005 audit report, we identified weaknesses in the
completeness and accuracy of the TSDB. During the TSC’s earliest days, it
had 12 staff assigned responsibility for nominations and data integrity tasks,
including one staff member that was dedicated solely to quality assurance
matters. During our initial audit, TSC management acknowledged that the
organization needed to focus more attention on ensuring the quality of the
watchlist. We recommended that the TSC regularly review and test the
information contained in the TSDB to ensure data is complete, accurate, and
non-duplicative. We also recommended that the TSC coordinate with
participating agencies and establish procedures to identify and resolve
missing and conflicting record information.

      In response to our recommendations, the TSC increased its quality
assurance efforts and implemented a data quality improvement plan that
detailed the TSC’s intent to conduct a record-by-record review of the TSDB.
As of March 2007, the TSC had 34 staff on-board in its Nominations and
Data Integrity Unit (NDIU), which is responsible for performing or overseeing




                               - 27 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


all of the TSC’s activities related to ensuring the quality and accuracy of the
watchlist, including: 41

   •   Reviewing incoming watchlist data (referred to as the single review
       queue).

   •   Performing reviews of historical records following an encounter where
       the TSC identifies a potential discrepancy in watchlist records.

   •   Conducting special quality assurance projects, such as performing a
       targeted review of the No Fly list or individuals with particular handling
       codes.

Single Review Queue

       Implemented in March 2006, the single review queue is a feature of
the TSDB that segregates the incoming data feed from NCTC so that quality
assurance analysts can test each record before releasing that record for
inclusion in the TSDB. Prior to the implementation of the single review
queue, each watchlist addition or modification the TSC received underwent
numerous, separate reviews by individual subject matter experts (persons
who were knowledgeable about the requirements of the specific databases
used by various screening agencies). In implementing the single review
queue, the TSC sought to make the nomination acceptance and review
process more efficient. The single review queue was designed to have
individual analysts in the NDIU be responsible for guiding individual records
through the process of loading the information into the TSDB. The single
review queue begins with the use of a computer program that analyzes
incoming records against more than 45 business rules. 42 A business rule is
an automated information technology function in which the record is
analyzed for specific deficiencies and compliance with criteria.

      Once the business rules have been applied to all of the records
received, the records are routed to the NDIU for manual review. Although
the TSC has drafted a standard operating procedure (SOP) describing the
single review queue process, it does not detail how NDIU analysts should
conduct this manual record review. We observed NDIU analysts reviewing
records in the single review queue and found that, in general, the review

       41
          The NDIU’s 34 staff included 7 individuals whose primary duty was to function as
a subject matter expert. The remaining 27 staff members were assigned to specific quality
assurance tasks and assisted with other quality assurance efforts as necessary.
       42
          The TSC also uses 55 business rules to ensure watchlist criteria are met in
exporting records to downstream databases.

                                   - 28 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


included: (1) determining whether the person met the criteria for inclusion
in the TSDB (i.e., nexus to terrorism and quantity of identifying
information); (2) confirming the supporting downstream screening systems
to which the record should be exported; (3) resolving any issues identified
during the execution of the business rules; and (4) comparing information
contained in watchlist nominations, such as [SENSITIVE INFORMATION
REDACTED], to source documents and source databases. The NDIU has
seven individuals serving as subject matter experts who are consulted when
NDIU analysts are unable to resolve all issues related to watchlist
nominations prior to these nominations being sent to downstream screening
databases. Generally, each record is reviewed by fewer persons than before
the implementation of the single review queue. As of March 2007, 10 of the
34 staff members in the NDIU were dedicated to the single review queue.

Encounter-Driven Quality Assurance Reviews

      In addition to data integrity work that is performed when new or
modified data is processed through the single review queue, the NDIU
receives referrals from the TSC Call Center for data checks on specific TSDB
records. If a call center operator identifies a potential discrepancy in a
watchlist record or obtains additional data relevant to a watchlist subject,
the operator alerts the NDIU to perform a quality assurance review of the
record. Generally, this occurs following a frontline screening agency’s
encounter with a watchlist subject.

      In April 2005, TSC management began requiring call center operators
to perform limited data quality tests while handling encounters. Because the
operators have access to all of the databases that interact with the TSDB,
they were in a position to point out inconsistencies in the information
contained in the records on specific individuals in the various databases.
This process was modified slightly in November 2006 when the TSDB was
upgraded to incorporate quality assurance activities. As a result of the
upgrade, individual watchlist records in the TSDB now contain a record
(referred to as a QA ticket) in which TSC staff can record all quality
assurance work that has been performed on that record. 43 With the
upgrade, call center screeners were instructed to create a QA ticket in the

      43
           Prior to the November 2006 TSDB upgrade, NDIU analysts first used an electronic
spreadsheet and then a database commonly referred to as the “quality assurance tracker”
to monitor quality assurance matters. NDIU analysts continued to use the quality assurance
tracker for matters requiring classified correspondence because classified information
cannot be placed into the QA ticket, which is housed within the TSDB – an unclassified
system. In April 2007, the quality assurance tracker program was discontinued due to a
number of concerns; the concerns and the TSC’s interim solution for recording classified
quality assurance matters are discussed on page 39.


                                  - 29 -
                       REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


TSDB for each positive screening encounter for which they identified any
erroneous or inconsistent information in the database records. 44 In addition,
the call screeners were told to create a QA ticket if they obtained new
information that should be added to the watchlist records. 45

      When a call center operator prepares a QA ticket, the TSDB
electronically routes the QA ticket to the NDIU for further action. An
encounter-driven QA ticket indicates that the encounter revealed that
information needs to be added or modified, or it will indicate that a call
screener identified a discrepancy with the completeness and accuracy of the
records. Upon receipt of QA tickets, dedicated NDIU staff review the
information from the call center screener and perform a full quality
assurance review of all affected records. The QA ticket is closed when all
necessary changes have been communicated to the source agencies and fed
back into the TSDB, which then updates the downstream screening
databases. As of March 2007, the NDIU had 9 individuals dedicated to
responding to QA tickets. 46

Special Quality Assurance Projects

      The TSC also examines historical TSDB records for accuracy and
completeness through targeted reviews of specific subsets of the watchlist
records. Examples of special projects that the TSC has conducted include a
review of TSDB records for individuals on the No Fly list and individuals with
particular handling codes. As of March 2007, the TSC assigned 8 of the
34 NDIU staff to these kinds of special projects.




       44
           Each encounter is positive, negative, or inconclusive. A negative encounter
occurs when a screening agency contacts the TSC because during a screening event an
individual is a potential match to a TSDB record, and the TSC (or other law enforcement
responder) determines that the individual is not a match to the name on the watchlist.
Conversely, a positive encounter is where the individual encountered is a match to the
watchlist. An inconclusive encounter occurs when the TSC is unable to determine if the
individual encountered is a match to an individual on the watchlist.
       45
           Encounters offer law enforcement agents an opportunity to obtain additional
information about watchlist subjects. For example, if a watchlist subject is positively
identified during an attempted border crossing, the federal agent may obtain previously
unknown information, such as a new passport number, eye color, or current address.
       46
         These NDIU staff members also address QA tickets generated from TSC quality
assurance efforts other than encounter-driven reviews, such as through the single review
queue and during ad hoc record quality reviews.

                                   - 30 -
                        REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


OIG Analysis of TSC Quality Assurance Efforts

       To examine the TSC’s efforts to ensure the quality of the information
in the TSDB, we examined the TSC’s review of records in the single review
queue and its review of encounters and special projects. In total, we
examined 156 TSDB records. Of these 156 records, 36 involved a request
for deletion. We determined that each of these records had been
appropriately deleted from the consolidated watchlist. Using the remaining
sample of 120 records, we performed tests to determine if the watchlist
records were accurate. We found that, in general, the TSC’s actions to
review records as part of a targeted special project successfully ensured the
quality of the data, and we identified virtually no errors in the 15 records we
tested in connection with special project reviews. In contrast, our
examination of 105 records subjected to the single review queue or post-
encounter quality assurance reviews revealed that 38 percent of these
tested records continued to contain errors or inconsistencies that were not
identified through the TSC’s quality assurance efforts. Our results are
discussed in detail below.

Review of TSC No Fly List Special Project

      The first major subset of TSDB records that the TSC began reviewing
as a special project was the Transportation Security Administration (TSA)
No Fly watchlist records. The No Fly list includes individuals who, in general,
are considered a threat to civil aviation and should be prevented from
boarding commercial aircraft. 47

      To assist the TSC in its review of the No Fly list, the DHS temporarily
assigned 10 federal air marshals to the TSC. The process included a review
of the available information for each individual listed on the No Fly list and a
determination of whether the individual should remain on the No Fly list. In
addition to reviewing each entry on the No Fly list, the TSC performed a
concomitant quality assurance review of all information contained in the
TSDB’s records for individuals on the No Fly list. As a result, all of the
TSDB’s records associated with individuals who were on the No Fly list
underwent a comprehensive quality assurance review.

      When the TSC began its review in July 2006, the No Fly list contained
71,872 records. As a result of the review, the TSC identified 22,412 records
for removal from the No Fly list and placement on the TSA’s Selectee list. 48

      47
           [SENSITIVE INFORMATION REDACTED]
      48
           [SENSITIVE INFORMATION REDACTED]


                                 - 31 -
                      REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


For another 5,086 records, the TSC determined that the individual did not
require inclusion on either the No Fly or Selectee list. The resulting No Fly
list changes the TSC identified are displayed in Exhibit 3-1. As of
January 31, 2007, the TSC had determined that the No Fly list should
contain 34,230 records. 49

                                    EXHIBIT 3-1
                        Results of TSC Review of No Fly List

                                                                     36%




                  56%
                                                                        8%


                          Records whose status did not change
                          Records downgraded to Selectee status
                          Records removed from both lists
                   Source: The Terrorist Screening Center Nominations and Data Integrity Unit


      We reviewed a sample of 15 TSDB records that had undergone a
quality assurance review as part of the TSC’s review of the No Fly list. We
did not find any data inaccuracies or inconsistencies in the records we
reviewed. Each record’s basic information [SENSITIVE INFORMATION
REDACTED] were shown consistently in all of the affected databases, and
each record remained the same or was downgraded from the No Fly list in
accordance with the final recommendation from the NDIU.

      We did, however, identify an issue with the implementation of the
status changes that the TSC identified during its review of the No Fly list.
TSC officials told us that although the No Fly records were reviewed at the
TSC, the status changes for known or suspected international terrorists
could not be reflected in the TSDB until the changes were processed in TIDE

       49
             During its review of the No Fly list, the TSC continued to receive routine No Fly list
additions, modifications, and deletions through the watchlist nomination process. As a
result, it is not possible to subtract the special project-driven No Fly list changes from the
starting point of 71,872 records and obtain the correct number of No Fly records as of
January 31, 2007.

                                     - 32 -
                          REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


at NCTC. The correct watchlisting status could then be uploaded from TIDE
to the TSDB during the normal daily data feed. In turn, the TSC would
export the No Fly and Selectee lists to the TSA for dissemination to the
airlines on a daily basis.

      According to TSC officials, NCTC and the airlines told the TSC that they
could not effectuate all of the 27,498 changes (22,412 downgrades from the
No Fly to the Selectee list plus 5,086 removals from the No Fly list) at once
due to resource limitations. TSC management had previously decided not to
send any record changes to NCTC until this special project was nearing
completion. TSC management explained that TSC analysts needed the time
to complete their quality assurance checks for each individual, particularly
those with multiple TSDB records. The first changes were sent to NCTC on
January 19, 2007. We were told that NCTC and the airlines could only
process between 500 and 1,000 record changes a day. As a result, the TSC
agreed to limit the number of changes it provided to NCTC and the airlines
each day.

      This piecemeal approach to implementing the changes in all of the
databases meant that the status of many individuals was incorrectly shown
on the TSA’s No Fly and Selectee lists for a period of time. 50 According to
TSC officials, all of the changes had been passed back to NCTC as of
March 21, 2007. However, as of May 31, 2007, the TSC and NCTC were in
disagreement about the proper No Fly-list status of 108 records.

Review of Routine Quality Assurance Matters

      Unlike our review of the No Fly list special project, our examination of
records passed through other TSC quality assurance processes revealed that
the reviewed records were still likely to contain errors or inconsistencies.
We selected a judgmental sample of 105 new and historical TSDB records
that had undergone the single review queue or encounter-driven quality
assurance processes. 51 We examined the records to ensure that each record
was exported to the appropriate screening databases. Additionally, we
reviewed the records to determine if basic information [SENSITIVE


       50
          The period of time for which a record would have been inappropriately watchlisted
to the No Fly list could range from a minimum of 1 day to a maximum of about 9 months.
       51
           We have consolidated our single review queue and encounter-driven quality
assurance sample selection and testing results here for ease of presentation. Although we
selected records from different subsets of the TSDB, each had been subjected to the same
quality assurance steps in the NDIU, making this consolidation possible. Details of our
sample selection and the populations from which we selected them are provided in
Appendix I.

                                   - 33 -
                        REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


INFORMATION REDACTED] was shown consistently in all of the affected
databases.

      Watchlist Designation and Handling Code Errors

      Our review revealed that 7 of the 105 TSDB records examined were
not being exported to all appropriate downstream watchlists. Specifically,
three records were not exported to CLASS Visa. Moreover, these three
records and an additional three records were not exported to [SENSITIVE
INFORMATION REDACTED]. 52 Additionally, one record was not properly
exported to the Interagency Border Inspection System (IBIS).

       We discussed these records with NDIU officials who agreed with our
findings. As a result of the TSC’s failure to export the four records to IBIS or
CLASS Visa, which are used by U.S. screening agencies, the watchlisted
individuals could be issued a U.S. visa erroneously or inappropriately allowed
to enter the United States. The TSC’s failure to export the six records to
[SENSITIVE INFORMATION REDACTED] can prevent U.S. allies from
identifying known or suspected terrorists and sharing additional intelligence.

      Our review also revealed that in two instances the TSDB records did
not correctly indicate how the record would be seen within the IBIS system.
When records are exported from the TSDB to the IBIS system, watchlist
records can be identified with a special, less-intrusive handling code, as
described earlier. We identified two TSDB records that were exported to
IBIS with the special handling designation but should not be because the
subjects were considered armed and dangerous or were not deemed a
U.S. person. In addition to incorrect IBIS handling designations, an
additional three records contained improper VGTOF handling codes. As
discussed earlier, VGTOF handling codes instruct law enforcement officers
how to properly handle an encounter with a watchlist subject. Incorrect
watchlist designations and handling codes can place frontline screeners at
increased risk.

      Inconsistent or Incomplete Watchlist Records

       Our review of the 105 TSDB records submitted to the TSC’s single
review queue or encounter-driven quality assurance examinations also
revealed that 35 TSDB records and the source or downstream records
contained inconsistent identifying information in one or more data fields. In
total, we identified 54 instances of inconsistent information. Our results are
displayed in Exhibit 3-2:


      52
           [SENSITIVE INFORMATION REDACTED]

                                 - 34 -
                      REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE



                                 EXHIBIT 3-2
                          TSDB Record Inconsistencies
                     TSDB Record Field                Inconsistencies 53




                      [SENSITIVE INFORMATION REDACTED]



                                          TOTAL                54
            Source: OIG analysis of TSDB, TIDE, and VGTOF watchlist records

       During our review, it became apparent that both the TSC’s quality
assurance efforts and our reviews of watchlist records identified errors and
inconsistencies in incoming records from the source agencies – NCTC and
the FBI. We discussed the watchlist nomination process with NCTC and FBI
officials, and both agency representatives stated that records are reviewed
for accuracy, completeness, and consistency before the records are
forwarded to the TSC. However, these efforts are failing to identify a
significant number of deficiencies in the nominated records. The TSC’s
quality assurance efforts, therefore, are hampered by the inaccurate and
incomplete source material.

       However, inconsistent records can confuse or delay TSC Call Center
operators in their efforts to determine if encountered individuals are a
positive match for watchlisted known or suspected terrorists. Further,
inconsistent information among databases involved in terrorism screening
indicates that at least one record may be incorrect. Incorrect records can
also misinform frontline screening agents and contribute to the
misidentification and delay of an innocent person or the inappropriate
release or admittance of a dangerous individual.

Quality Assurance Management and Oversight

      In general, we believe the actions the TSC has taken to improve
quality assurance since our last audit are positive steps. We also recognize

      53
           Each entry in this column represents a TSDB record for which we determined that
the identified TSDB record field was not in agreement with TIDE and VGTOF. (We limited
our review to those databases.) It is possible for one record to have more than one error,
and the overall total is the number of field errors.


                                  - 35 -
                       REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


that it is impossible to completely eliminate the potential for errors.
However, we identified inaccuracies in the TSDB that persisted even after
undergoing the quality assurance process. This underscores the need for
additional actions to ensure that the TSDB is a reliable source of information
about known or suspected terrorists. Specifically, as described below, we
believe that the TSC should: (1) work with the participating agencies to
improve coordination related to quality assurance work, including
establishing areas of responsibility and timeframes for following up on
quality assurance matters; (2) develop a comprehensive standard operating
procedure for quality assurance matters; (3) regularly review the NDIU’s
quality assurance work; (4) develop a reliable and secure method for
tracking quality assurance matters that involve classified correspondence;
and (5) develop quality assurance benchmarks to monitor the TSC’s
progress in conducting a record-by-record review of the TSDB.

Coordinating with Participating Agencies

      According to TSC personnel, NDIU analysts should follow up on all
quality assurance matters every 30 days. However, the TSC does not have
a mechanism such as a standardized report or digital dashboard that
catalogs all outstanding quality assurance matters. 54 As a result, NDIU
analysts are not prompted to follow up on long-outstanding quality
assurance matters for which the TSC is waiting for a response from another
agency, such as NCTC. Rather, it is up to each individual analyst to take
follow-up action.

      We examined a sample of 51 quality assurance matters opened
between February 2006 and February 2007 and found that the matters were
open from 0 days (the matter was closed the same day as it was opened) to
329 days. On average, quality assurance matters in our sample were open
for 80 days. We also obtained TSC data related to the number of quality
assurance matters identified and resolved between November 2006 and
March 2007. 55 This data shows that the TSC is identifying incomplete or
inaccurate information in TSDB records faster than the matters are being
resolved.




       54
          A digital dashboard is a business management tool to visually display the status
of a business project. The dashboard can provide warnings, next steps, action notices, and
summaries of a project.
       55
        The TSC could provide historical data on quality assurance matters only since
November 2006 when the latest version of the TSDB was deployed.


                                  - 36 -
                       REDACTED FOR PUBLIC RELEASE
                                      REDACTED FOR PUBLIC RELEASE


                                       EXHIBIT 3-3
                       Cumulative Growth in Quality Assurance Matters
                     25,000

                                                                                                    20,657
                     20,000

                                                                                                   18,143
        QA Matters




                     15,000                                                          12,433


                     10,000
                                                                                     11,270
                                                             5,862

                      5,000                3,436
                              2,430                          5,287
                            2,253          3,116
                         0
                     November 2006     December 2006     January 2007             February 2007   March 2007

                                                       Resolved      Identified

       Source: The Terrorist Screening Center


      Exhibit 3-3 shows that the cumulative difference between quality
assurance matters identified and addressed has increased from 177 in
November 2006 to 2,514 in March 2007. A significant portion of the
increase in quality assurance matters processed by the TSC resulted from its
implementation of its No Fly special project in January 2007. However, the
TSC is regularly identifying errors or concerns with known or suspected
terrorist records. To resolve inaccuracies and inconsistencies in watchlist
records, the TSC usually must involve the source agencies – NCTC and the
FBI. TSC officials acknowledged that the TSC and the participating agencies
have not established timeframes for the resolution of quality assurance
matters.

      We believe that the TSC needs to work more closely with watchlisting
agencies to better coordinate quality assurance efforts. This includes setting
a standard for the timeliness of response to quality assurance matters, as
well as delineating the roles and responsibilities of the various agencies
involved. To improve the overall quality of the watchlist, the TSC needs the
source agencies to provide records that are accurate, complete, and
consistent, and to respond to quality assurance matters within a reasonable
time. Without such an agreement, the TSC must expend additional effort to
resolve errors that should have been identified earlier in the nomination
process and continue to remind watchlist agencies about individual quality
assurance matters.

      Further, the delayed closure of quality assurance matters directly
affects the accuracy of the consolidated watchlist database because records

                                                 - 37 -
                                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


can contain inaccurate and incomplete information for extended periods of
time while the matter is being resolved. Therefore, in concert with the
development of established timeframes for resolving quality assurance
matters, we recommend that the TSC develop a tickler system or aging
schedule for its quality assurance work.

Standard Quality Assurance Procedures

       During our audit, we personally observed NDIU analysts conducting
quality assurance reviews of watchlist records. We noted that the analysts’
method of performing their reviews was not always consistent. For example,
some analysts inspected all of the documents supporting a TSDB record,
while other analysts relied solely upon summary information. We also found
that the analysts were not documenting their quality assurance work
consistently. The TSC has an SOP for its quality assurance efforts which was
last revised on August 16, 2005. The document did not provide complete
guidance to the analysts on the processing of quality assurance matters.
Further, this SOP informs the analysts to review the record, but does not
detail what fields, supporting information, and other aspects of the record
the analysts should be verifying and comparing. In addition, these
procedures do not instruct the analysts on the necessary actions to take
when inaccurate or incomplete information is identified. Moreover, this
protocol does not mention the existence of special projects within the TSC’s
quality assurance efforts. We believe that the TSC should develop a
detailed, comprehensive quality assurance SOP to better guide the NDIU
analysts through all aspects of their work.




                               - 38 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


NDIU Analyst Oversight

      The TSC provides only a few days of training to its quality assurance
analysts in the NDIU. Following the completion of that training, the analysts
begin working independently and no additional routine training or refresher
courses are required. However, staff meetings are held on an ad-hoc basis
to discuss specific issues that have been encountered. The TSC does not
have a mechanism for regularly spot-checking the work of its quality
assurance analysts to help ensure that the analysts are performing
appropriate reviews and keeping abreast of any process changes. We
believe that the TSC should develop a system for performing regular spot-
checks of NDIU analysts’ work to identify any weaknesses and needs for
additional training. This process should be included within the
comprehensive quality assurance SOP.

Handling Classified Quality Assurance Matters

      Prior to April 2007, the TSC was using an in-house system called
quality assurance tracker to catalog all classified correspondence related to
quality assurance matters. 56 However, TSC officials determined that the
database: (1) had reached its storage capacity, (2) temporarily lost an
estimated 2,000 records in January 2007, (3) did not have a reliable process
for backing up the data, (4) did not create any standard management
reports, (5) had no method for audit tracking, (6) had not been examined
and tested thoroughly by the FBI, and (7) was used by very few staff.
Therefore, the TSC shut down the database in April 2007 to prevent any
more problems with its use.

       The TSC researched several possible long-term methods for tracking
classified quality assurance correspondence. As of April 2007, the TSC’s
temporary method was to use electronic folders on a classified server. We
believe that this method will not be an effective method for tracking
classified correspondence. In addition, a quality assurance analyst in the
NDIU told us that the electronic folder method will be more time-consuming
and less useful than tracking their individual correspondence within e-mail
accounts and, as a result, some analysts do not plan to use the temporary
system. We believe the TSC needs to develop a more effective and user-
friendly means for temporary tracking of classified quality assurance
correspondence.




       56
          The TSC cannot place classified information into its QA tickets because this
information is stored within the TSDB, which is an unclassified system.

                                   - 39 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


Progress on the TSC’s Record-by-Record Review of the TSDB

      In responding to our earlier audit, TSC officials reported that they
planned to conduct a record-by-record review of all records within the TSDB.
In February 2006, TSC officials estimated that this review would not be
complete until 2012. At the time of our current audit, the record-by-record
review was ongoing through the three-pronged strategy of the NDIU – the
single review queue, encounter-driven quality assurance reviews, and
special projects. TSC officials told us that they plan to examine the TSDB
following the completion of the on-going special projects and determine how
many TSDB records have not yet been reviewed. The TSC then plans to
review any previously unexamined records in an effort to examine the entire
TSDB.

       In February 2007, TSC officials told us that since the inception of the
single review queue in March 2006 over 670,000 TSDB records had been
reviewed and the agency had revised its estimated completion date. TSC
officials now project that the record-by-record review will be complete by the
end of 2007.

        Yet, we believe that the TSC may have overstated the number of
records reviewed and is underestimating the amount of time and effort that
it will take to complete its review of the entire TSDB. We base these
conclusions on the following factors:

      •     As previously discussed, the TSC’s single review queue and
            encounter-driven quality assurance processes do not sufficiently
            ensure the quality of the watchlist records. Therefore, the TSC
            should reconsider records examined in these processes in its
            count of records reviewed.

      •     The number of records reviewed is not limited to the review of
            unique records. Rather, the TSC’s quality assurance process
            allows for one record to be reviewed multiple times: through the
            single review queue, following each request to modify or delete
            the record, in accordance with one or more special projects, and
            subsequent to each encounter. Therefore, we believe that the
            TSC’s cumulative tally of records reviewed can include records
            counted multiple times.

      •     Between September 2006 and April 2007, the TSDB grew at an
            average rate of over 20,000 records per month, or
            approximately 174,000 additional records during this 8-month
            period. This growth adds to the analysts’ workload. Since

                               - 40 -
                    REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


            April 2004, the TSDB has more than quadrupled in size, growing
            from 150,000 to 724,442 records in April 2007.

      •     In February 2007, there were about 3,000 open quality
            assurance matters that required follow-up.

      We believe that, if the number of records in the TSDB continues to
grow at the current rate and the number of quality assurance matters
similarly increases, the NDIU will not complete the record-by-record review
of the TSDB by the end of 2007 as anticipated. We recommend that the TSC
accurately determine the magnitude of the unexamined portion of the TSDB
so that agency officials can implement a sound plan for examining those
records and develop a realistic completion date for the endeavor. Further,
the TSC should establish benchmarks against which it can measure its
progress.

TSC Efforts to Enhance Terrorist Watchlisting

       Although we identified several actions that the TSC should take to help
improve the accuracy and completeness of watchlist records, our audit also
revealed a recent TSC initiative that we believe is a noteworthy practice for
enhancing watchlist records. Specifically, we noted that the TSC runs a
report each week of NCIC hits in VGTOF and compares these hits to positive
encounters in its Encounter Management Application (EMA) database to
determine if each hit was called into the TSC Call Center. Performing this
review offers the TSC an opportunity to educate local law enforcement
officers about the importance of the TSC mission and determine if there
have been additional known or suspected terrorist encounters of which the
TSC was previously unaware. If the encountered individual was a positive
identity match to a terrorist watchlist record, then any new information
obtained during the encounter should be added into the TSDB record to
enrich the record and provide added value to the intelligence community.
TSC officials stated that currently they are identifying an average of 40 to
70 encounters each week that are not being called into the TSC. When the
TSC identifies a hit that was not called into the call center, this information is
relayed to the FBI. In turn, the local FBI field office is asked to follow up
with the local law enforcement agency that ran the NCIC check. The FBI
field office sends an agent to the local, state, or tribal law enforcement
agency to obtain any information about the encounter and to remind the law
enforcement agency that they should call all NCIC hits for known or
suspected terrorists into the TSC Call Center.

     We believe this practice can provide useful information for enriching
the watchlist records. However, we noted that although the NCIC hit report

                                - 41 -
                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


is run on a weekly basis, it is taking an additional 2 weeks to notify the FBI
of these encounters. Our concern with the 2-week time lag is that some
local, state, and tribal law enforcement personnel will not remember clearly
the encounter by the time they are contacted by the FBI, which can result in
a missed opportunity to obtain new information. TSC officials told us that
they are working with the FBI to expedite this process.

      We were also told that other law enforcement agencies do not always
follow up with the TSC to inform them about any newly obtained encounter
information. Considering that approximately 60 percent of the encounters
are identified by the CBP, the TSC should explore methods for performing
similar enrichment exercises related to other screening agency encounters.

Conclusion

      The TSC has made significant strides in its quality assurance efforts
since our last review, including the creation of the NDIU and the
development of new quality assurance processes. In addition, the TSC’s
goal to perform quality assurance testing of all new and historical records in
the TSDB is a positive step. However, we believe that more needs to be
done to ensure the accuracy of the watchlist records.

       The number of quality assurance matters identified by the TSC
increased from about 2,500 in November 2006 to over 20,000 in
March 2007, with the number of unresolved matters increasing from 177 to
2,514 during this period. Additionally, the overall size of the consolidated
terrorist watchlist has quadrupled in size since the TSC’s inception,
increasing from about 150,000 records in April 2004 to over 700,000 as of
April 2007. This growth further adds to the amount of work for the TSC
quality assurance staff to ensure the quality of the records in the
consolidated watchlist database.

      Our review found that the TSC has not developed a detailed plan of
action and benchmarks or milestones to accomplish its goal of reviewing
every record in the watchlist database. Additionally, we found errors in
records that had undergone routine TSC quality assurance reviews, but a
higher quality for watchlist records examined in TSC special project
reviews.

      We also found that the TSC’s SOP for quality assurance matters did
not provide sufficient guidance for analysts to use in performing their
examinations of watchlist records. Further, the TSC’s oversight and internal
controls over the quality assurance process did not detect the continued
existence of significant record errors and omissions. Finally, we believe the

                               - 42 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


TSC is hampered by the lack of agreements with the nominating and
screening agencies. Such agreements could improve the timeliness for
resolving quality assurance matters and help ensure that additional
information is obtained during encounters with known or suspected
terrorists.

      Without a standardized process, adequate internal controls, and
agreements with source and watchlist agencies, watchlist records may
remain inaccurate and incomplete for an unnecessary amount of time.
Before the records are corrected or updated, law enforcement agencies may
encounter watchlisted individuals. Additionally, inaccurate records can cause
screeners to unnecessarily delay or detain individuals misidentified as a
known or suspected terrorist.

Recommendations

We recommend that the TSC:

  7.   Correct the records identified by the OIG containing incorrect
       watchlist designations, handling code errors, and inaccurate and
       inconsistent information.

  8.   Coordinate with NCTC and the FBI to implement an agreement that
       establishes the areas of responsibility and the timeframes for data
       quality assurance matters.

  9.   Develop a comprehensive standard operating procedure that
       describes the TSC’s three-pronged quality assurance strategy and
       details the methodology to be used in performing quality assurance
       reviews.

  10. Develop a process to perform regular spot-checks of NDIU analysts’
      work to identify any weaknesses and need for additional training.

  11. Develop an improved and user-friendly process for tracking classified
      correspondence related to quality assurance matters.

  12. Develop a tickler system or digital dashboard for all pending quality
      assurance matters.

  13. Develop a comprehensive plan, including benchmarks or milestones,
      to complete the record-by-record review of the TSDB.




                               - 43 -
                    REDACTED FOR PUBLIC RELEASE
                 REDACTED FOR PUBLIC RELEASE


14. Coordinate with other partner agencies to establish a formal process
    for relevant encounter information to be captured by frontline
    screening agents and returned to the TSC to update watchlist records.




                            - 44 -
                 REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


III. TERRORIST WATCHLIST REDRESS

     The TSC has developed comprehensive procedures, has
     dedicated staff, and coordinates with partner agencies to help
     ensure that it effectively and efficiently processes complaints
     from individuals experiencing delays or difficulties due to
     terrorist watchlist screening. Our review found that the TSC was
     following its procedures and reaching appropriate resolutions in
     such redress reviews. TSC redress disposition data indicated
     that nearly half of the total closed redress reviews resulted in a
     modification to or removal of a terrorist watchlist record. We
     believe that the TSC’s redress review results provide a further
     indicator that watchlist data needs continuous monitoring and
     attention.

     We also found that there are excessive delays in closing redress
     matters. Additionally, we believe that the TSC should use
     information related to terrorist watchlist identities that are
     frequently the subject of watchlist encounters to proactively
     initiate redress reviews before complaints are filed.

Overview of the TSC’s Redress Efforts

       Persons stopped as a result of watchlist matches may be actual
watchlist subjects, individuals misidentified to a terrorist identity, or
someone mistakenly included on the watchlist. As a result of the terrorist
watchlist screening process, individuals may complain that they were
adversely affected and seek relief. Individual government agencies involved
in terrorist watchlist screening should have a redress process to effectively
resolve the complaint and respond to the complainant. Similarly, the TSC
should have reasonable procedures to provide redress for individuals from
faulty watchlist identifications.

      When we initiated our first TSC audit in 2004, the TSC did not have an
established process for handling inquiries related to private individuals who
sought watchlist information following their involvement in a screening
encounter. In January 2005 the TSC assigned staff to address terrorist
watchlist screening complaints and began to develop a strategy for redress
matters. In our previous audit report, we recommended that the TSC
develop formal procedures for handling redress inquiries. In response, the




                               - 45 -
                    REDACTED FOR PUBLIC RELEASE
                         REDACTED FOR PUBLIC RELEASE


TSC formalized its process by implementing an official Redress SOP in
July 2005 and a revised version in May 2007. 57

       In brief, individuals who believe they were unnecessarily and adversely
affected by watchlist-related screening procedures may file a redress
complaint with the agency involved in the event. For example, if an
individual is prohibited from boarding a commercial airline flight, the person
would contact the TSA to file a redress complaint. If the TSA determines
that the event was related to terrorist watchlist screening, the complaint is
forwarded to the TSC for review. Once the TSC has completed its
examination, it makes any necessary changes to associated watchlist
records and forwards its results back to the TSA, which provides feedback to
the complainant.

        In November 2005, the TSC created a separate Redress Office to
process redress matters. As of April 2007, the TSC Redress Office was
managed by the Redress Officer and supported by four analysts and one
management assistant. TSC officials said they plan to expand the Redress
Office to seven analysts. 58 The analysts in this office are responsible for
reviewing redress inquiries, corresponding with partner agencies for
clarification or additional information, and recommending to the Redress
Officer how to dispose of an inquiry. The Redress Officer is responsible for
supervising the analysts, reviewing each redress evaluation, facilitating
coordination with other agencies, and finalizing the disposition of the redress
inquiry.

      We believe the TSC has taken a number of other positive steps to
address redress matters since our prior audit. For example, the TSC helped
to spearhead the creation of a multi-agency agreement addressing watchlist
redress. In addition, the TSC has enhanced its own procedures for handling
redress matters.

     However, in this audit we identified areas in need of continued
improvement and further development, such as the timeliness of redress



       57
           The TSC’s revised May 2007 Redress SOP includes more detailed guidance and
reflects changes within the TSC, such as technology improvements, organization structure,
and staffing. The revised Redress SOP also expanded TSC redress disposition categories
and provided more detailed instructions on its redress processing as well as the
incorporation of new technology and terminology.
       58
          As of April 2007, the TSC allocated six analyst positions to its Redress Office, of
which four positions were filled. The TSC reported that it expected to add an additional
analyst position for a total of seven.

                                    - 46 -
                         REDACTED FOR PUBLIC RELEASE
                          REDACTED FOR PUBLIC RELEASE


matter resolution and utilizing encounter information to provide redress
without a complaint being submitted. These issues are discussed below.

Multi-agency Redress Agreement

       In December 2006, a multi-agency agreement entitled Memorandum
of Understanding on Terrorist Watchlist Redress Procedures (Redress MOU)
was developed by a working group of representatives from the various
agencies involved in terrorist watchlisting and screening. Representatives
from the Privacy and Civil Liberties Oversight Board of the Executive Office
of the President were also included in the development of the MOU. 59 As of
April 2007, the Redress MOU was being circulated for signature by the heads
of the TSC, DOJ, DHS, State Department, the Office of the Director of
National Intelligence (ODNI), the FBI, the Central Intelligence Agency (CIA),
NCTC, the Department of Defense (DOD), and the Department of the
Treasury. 60

      The Redress MOU formalizes the responsibilities of each agency in
adjudicating redress inquiries. The agreement requires each agency to
assign redress responsibilities to a senior official and commit necessary
resources to ensure the efficiency of the redress process and compliance
with the Redress MOU. The Redress MOU notes that the TSC has ultimate
authority on redress decisions related to the terrorist watchlist. 61

Overview of the Terrorist Watchlist Redress Process

      On February 20, 2007, DHS and the State Department implemented
the Traveler Redress Inquiry Program (TRIP). This program established a
centralized portal for persons to file complaints regarding difficulties
experienced at screening points during travel, such as airports, train
stations, and border crossings. DHS headquarters officials informed us that
TRIP will also help coordinate the resolution of complaints, monitor trends in
complaints, and measure redress process efficiencies.

      Exhibit 4-1 shows a basic illustration of the U.S. government’s process
for addressing redress inquiries related to the terrorist watchlist.



       59
         The Privacy and Civil Liberties Oversight Board advises the President and other
senior executive branch officials on matters with respect to privacy and civil liberties.
       60
        The TSC reported that as of April 18, 2007, all agencies had signed the
agreement except the DOD, the CIA, and the State Department.
       61
            The TSA makes final decisions on No Fly list redress appeal matters.

                                     - 47 -
                          REDACTED FOR PUBLIC RELEASE
                                     REDACTED FOR PUBLIC RELEASE


                                         EXHIBIT 4-1
                       Flowchart of Terrorist Watchlist Redress Process

       Frontline screening
    agency receives complaint

                TRIP
    (DHS and State Department)

                FBI




        Screening agency             Not related
          determines if              to watchlist          Resolve at         Screening agency
       complaint is related                                screening            responds to
          to a terrorist                                    agency              complainant
       watchlist encounter


    Related to
    watchlist


                      TSC REDRESS PROCESS
                                                          Not related
                                                         to the terrorist
                                                            watchlist



               TSC               TSC Redress Office
                                                        Positive match
            receives             determines factors
                                                          to terrorist
             redress                  related to
                                                        watchlist identity
             referral             terrorist watchlist                         TSC Redress Office    TSC revises
                                                                                reviews related       watchlist
                                                                              watchlist record(s)   record(s) as
                                                                             & resolves complaint    necessary
                                                        Misidentification
                                                           to terrorist
                                                        watchlist identity



Source: The Terrorist Screening Center

  Receipt of Redress Complaints

        Complainants file redress inquiries with the frontline screening
  agencies involved in the encounters, such as to the FBI or through TRIP for
  DHS and the State Department. 62 As shown in Exhibit 4-1, the screening
  agency reviews the complaint and determines if the inquiry relates to a
  possible terrorist watchlist match.



           62
             The FBI is typically not the agency encountering the individual, but its NCIC system is
  used in the screening process. Therefore, the FBI is considered the screening agency in such
  instances.

                                                - 48 -
                                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE


       Individuals can also be affected by screening protocols unrelated to
the terrorist watchlist, such as through random search procedures or other
security screening practices. Despite someone’s actual presence or non-
presence on the terrorist watchlist, individuals may assume they have been
mistakenly included on the watchlist or misidentified to a terrorist watchlist
identity and submit a complaint requesting relief. If the screening agency
determines that the complaint is not related to the terrorist watchlist, it
should resolve the matter internally and respond to the complainant. For
example, an airline may deny a person from boarding an airplane because of
drunkenness or disorderly behavior. Complaints related to these types of
matters and others unrelated to the terrorist watchlist should not be referred
to the TSC.

      However, the screening agency should refer to the TSC all redress
inquiries determined to pertain to a possible watchlist match. From
January 2005 through February 2007, the TSC received 438 such redress
referrals. As illustrated in Exhibit 4-2, 96 percent of the redress inquiries
referred to the TSC were forwarded by DHS components (CBP, TSA,
Immigration and Customs Enforcement (ICE), and other DHS entities). The
TSA referred nearly one-half of all redress inquiries received by the TSC.
Non-DHS agencies referred a total of 19 redress matters, including the FBI
(9 referrals), the State Department (3 referrals), state and local law
enforcement agencies (6 referrals), and the Executive Office of the President
(1 referral).

                              EXHIBIT 4-2
               TSC Redress Referrals by Referring Agency
                  (January 2005 through February 2007)
                                                           Other
                         DHS other                        agencies
                         33 referrals                    19 referrals
                             8%                              4%




                                    ICE
                                85 referrals
                                                      TSA
                                   19%
                                                  210 referrals
                                                     48%


                                       CBP
                                   91 referrals
                                      21%




    Source: The Terrorist Screening Center Redress Office

                                 - 49 -
                      REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


TSC Redress Process

       When the TSC receives a redress complaint, the TSC Redress Office
analyst assigned responsibility for resolving the complaint determines the
relationship of the complainant to the terrorist watchlist and places the
individual in one of the following three categories: (1) non-related,
(2) positive match, and (3) misidentified.

      Non-related – The analyst may determine that the complainant does
not match a terrorist watchlist identity and was not the subject of an
encounter involving a potential match. Essentially, the inquiry should not
have been referred to the TSC in the first place. In these cases, the TSC
returns this matter to the appropriate screening agency for resolution.

       Positive Match – A complainant who matches an identity on the
terrorist watchlist and was the subject of at least one watchlist-related
encounter is considered a positive terrorist watchlist match. For positive
match redress referrals, a Redress Office analyst conducts a complete review
of the watchlist records to ensure information on the individual meets the
criteria for watchlisting and is accurate, complete, and current. This review
will also include contacting the nominating agency to obtain any new
information on the individual not yet available to the TSC.

      After reviewing this information, the analyst recommends that a
record: (1) remain unchanged, (2) be modified, or (3) be removed from the
watchlist. If it is determined that the watchlist record is accurate, complete,
and current, the analyst then recommends that no changes be made to the
record or the watchlist status of the individual.

      For some redress inquiries, the analyst recommends a modification to
the record. This could entail updating the record with new information or
correcting errors in the record. Another recommended revision may include
changing the watchlist status of an individual, such as removing a person
from the Selectee list or escalating a person’s watchlist status from the
Selectee list to the No Fly list.

      The last disposition scenario for a positive match record involves
removing the identity record from the terrorist watchlist altogether. Based
on a review of relevant and current information, the analyst may determine
that an identity does not meet the criteria for inclusion on the terrorist
watchlist.

      Misidentification – An individual who is the subject of a terrorist-
related screening but whose identity is not on the terrorist watchlist is

                                - 50 -
                     REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE


considered to have been misidentified. Redress referrals for misidentified
complainants are processed by the TSC similarly to positive match referrals.
The Redress Office analyst assigned the inquiry reviews the terrorist
watchlist record involved in the misidentification and ensures that the record
is accurate, complete, and current. The analyst then recommends any
necessary changes to the record or watchlist status.

       If, as a result of a redress review, the TSC recommends a change to
the watchlist record or status (for either a positive match or misidentification
referral), the Redress MOU and the TSC Redress SOP both require that the
TSC discuss its findings with the nominating agencies. While the nominating
agencies may provide input, the TSC has the ultimate authority to resolve all
terrorist watchlist redress matters. Finally, the TSC Redress Office ensures
that the necessary changes are made to watchlist records before closing its
review and alerting the frontline screening agency of its resolution. The TSC
does not respond to the complainant. Rather, the TSC coordinates with the
frontline screening agency, which should submit a formal reply to the
complainant.

       The TSC’s revised May 2007 Redress SOP includes an expansion of the
redress disposition categories. The non-related category was expanded to
capture two additional situations: (1) instances in which the TSC
administratively closes its review because screening agencies do not comply
with TSC redress requirements, and (2) occasions that a redress complaint
was considered moot because the terrorist identity to which the redress
inquiry refers was already removed from the watchlist through normal
watchlist modification or quality assurance procedures. In addition, the TSC
renamed its misidentification category to “near match.” Lastly, the TSC
added one disposition category to use when the TSC Call Center incorrectly
identified an individual as a positive watchlist match. The TSC believes its
expansion of disposition categories will allow it the ability to better track its
redress resolutions and to identify areas in the watchlist process that could
be improved. For instance, the Redress Office could find that the TSC Call
Center’s percentage of incorrect identifications has increased significantly
and recommend that a thorough review be conducted.

Disposition of Redress Complaints

      The TSC tracks its processing and disposition of redress inquiries in a
TSC database. At the time of our review, the database included only those
disposition categories used by the TSC prior to the revision of the TSC’s
Redress SOP. The disposition for the 388 redress inquiries closed by the
TSC between January 2005 and February 2007 is shown in Exhibit 4-3.


                                - 51 -
                     REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


                                   EXHIBIT 4-3
                       TSC Redress Complaint Disposition
                       (January 2005 through February 2007)
                                                 Number of           Percentage of
     Disposition
                                                 Complaints           Complaints
     Misidentification                                 52                   13%
     Positive Match (no change)                       136                   35%
     Positive Match (remove record)                    76                   20%
     Positive Match (modify record)                    97                   25%
     Non-related                                       27                    7%
     Total                                            388                  100%
     Source: The Terrorist Screening Center Redress Office

Misidentified Complainants

      TSC redress complaint disposition data show that 13 percent of the
388 closed redress inquiries were for complainants who were misidentified to
a terrorist identity and were not an actual watchlist subject.

       According to the TSC, the most common cause of a misidentification is
name similarity. As previously discussed, the watchlist is identity-based and
relies on name searches in order to vet persons against the watchlist. This
can result in a person with an identical or similar name being identified as a
terrorist watchlist identity. In many instances the screening agency can use
additional identifying information, such as a date of birth or a passport
number, to eliminate the individual as a terrorist watchlist match. 63

Positive Watchlist-Match Complainants

     Of the 388 redress complaints reviewed by the TSC between
January 2005 and February 2007, 80 percent involved complainants who
were on the terrorist watchlist. Through its redress review process, the TSC
determined that watchlist records for 35 percent of the closed positive

       63
           Screening agencies have also developed programs to assist persons repeatedly
misidentified to terrorist watchlist identities. For instance, an individual can voluntarily
submit personal-identifying information to the TSA and request to be placed on the TSA
Cleared List. If approved for placement on the Cleared List, the individual’s name and
personal-identifying information can be used to more quickly determine that the individual
is not on the No Fly or Selectee lists. Similarly, the CBP and the State Department have
implemented procedures to annotate records of misidentified persons in their databases to
help avoid future port-of-entry screening and visa application delays. These actions are
particularly helpful for a non-watchlist individual with an exact or a very similar name match
to a known or suspected terrorist.


                                   - 52 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


watchlist-match redress complaints required no change, 25 percent required
some modification to the watchlist records, and 20 percent necessitated
removing the complainant’s identity from the watchlist.

       Therefore, the TSC determined through its review that 45 percent of
the watchlist records related to redress complaints were inaccurate,
incomplete, not current, or incorrectly included. 64 TSC officials stated that,
in some instances, at the same time that a nominating agency was going
through the process of having an individual removed from the watchlist, that
individual filed a redress complaint. In other instances, the TSC Redress
Office found inaccuracies in the watchlist record or discovered additional,
relevant information that had not been passed to the TSC.

       Specifically, in 76 redress reviews, the TSC determined that the
individual should not be watchlisted. In an additional 97 instances, the TSC
found that the watchlist record was inaccurate or incomplete. The TSC’s
redress review results indicate that the watchlist includes individuals that
should not be watchlisted and that other records contain deficiencies. These
results are further evidence that watchlist data needs continuous monitoring
and attention.

      At the time of our review, the TSC did not track whether a change to
the watchlist record was the result of a TSC redress review or whether the
change was coincidental to a concurrent nominating agency submission of
information to update the watchlist record. The TSC believes its expanded
disposition categories will better account for these scenarios and provide a
more accurate picture of redress resolution. The TSC Privacy Officer
acknowledged that the high percentage of records requiring modification or
removal may point to deficiencies in the terrorist watchlist nomination
process and with nominating agencies not providing the TSC additional
information important to appropriately update terrorist records.

Timeliness of Processing Redress Complaints

       For each redress complaint it receives, the TSC develops a file folder
and inputs information into a redress tracking database. The redress file
contains information obtained, verified, and developed by the Redress Office.
The file contains the Redress Office’s review of relevant databases,
correspondence with partner agencies, rationale for the resolution of the
complaint, and management review.


       64
            This 45 percent does not include the terrorist records that were modified or
removed as part of a redress inquiry by a misidentified individual because the TSC did not
specifically track those types of dispositions.

                                   - 53 -
                        REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE


      We judgmentally selected 20 redress inquiries the TSC received
between January 2006 and February 2007 and reviewed the corresponding
redress files to determine if the TSC followed its Redress SOP for resolving a
redress complaint. We found the TSC complied with its Redress SOP in all
20 cases, including reviewing the applicable screening and intelligence
databases, coordinating with partner agencies, and reaching appropriate
resolutions.

       We also reviewed TSC redress files and statistics to determine the
efficiency of redress reviews. Our analysis of TSC data reveals that it took
the TSC, on average, 67 days to close its review of a redress inquiry. 65 For
redress matters referred to the TSC during the last semiannual period in our
review (July through December 2006), it took the TSC an average of
57 days to finalize its review.

      In addition to closed matters, we also analyzed the number of days
that pending TSC redress matters had been open. The TSC had a total of
50 open redress inquiries as of February 27, 2007 and the average number
of days these matters were open was 61. Of these inquiries, 38 percent
were open over 60 days, including 2 inquiries that were pending over
180 days. Exhibit 4-4 details the number of days the 50 redress matters
were open as of February 27, 2007.

                                 EXHIBIT 4-4
                           Open TSC Redress Matters
                               (as of February 27, 2007)
                                     Number of               Percentage of Total
   Number of Days Open
                                Open Redress Matters        Open Redress Matters
   180 days or more                      2                            4%
   90-179 days                          12                          24%
   60-89 days                            5                          10%
   30-59 days                           11                          22%
   less than 30 days                    20                          40%
            Total                       50                         100%
   Source: The Terrorist Screening Center Redress Office

      Our analysis of closed and open redress matters indicates that it takes,
on average, about 2 months for the TSC to finalize its review of a redress
inquiry. TSC redress files included copies of e-mails and records of
discussion between the TSC Redress Office and nominating agency
personnel, as well as an accounting of other significant actions taken by TSC

      65
          Redress matters pending as of February 27, 2007, were not included in our
analysis of closed redress matters.

                                  - 54 -
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


analysts to resolve the inquiry. TSC officials stated that each redress review
is unique and that more complex cases require a longer review period.

       Our review of TSC redress files revealed that long review periods were
caused by a variety of factors. In some instances, the TSC took a significant
amount of time to finalize its determination before coordinating with other
agencies for additional information or comment. A TSC official involved in
redress also stated that the Redress Office staffing level sometimes affected
the TSC’s ability to reach timely determinations. At times, the Redress
Office used staff from other TSC units on a collateral, part-time basis. These
persons would process redress matters when not performing their primary
responsibilities and as time permitted. However, the TSC determined that
this collateral assignment method did not provide the most efficient or
effective means of resolving redress matters and, as a result, stopped this
practice as of April 2007.

      Other lengthy redress reviews were affected by nominating agencies
not providing timely feedback to the TSC or not efficiently processing
watchlist paperwork. The coordination TSC conducts with nominating
agencies on redress matters includes corresponding with subject matter
experts and case agents for clarification or updated information, requesting
necessary watchlist processing documents (such as the FBI’s terrorist
watchlist nomination and modification form), and resolving differences of
opinion between the TSC and nominating agency. For two redress matters,
we found that the TSC repeatedly requested the FBI to file necessary
paperwork in order to modify the watchlist records, and that it was finally
able to close the matters over 140 days after its original requests. Further,
we reviewed another redress file showing the FBI closed a preliminary
investigation on an individual in November 2005. However, it did not notify
the TSC that it determined the individual had no nexus to terrorism and
should be removed from the watchlist. The TSC’s redress review finally
effected the overdue removal of this individual from the watchlist in
January 2006.

      Additionally, our file review found that certain screening agencies were
slow to update their databases with accurate and current information. For
instance, the State Department and the CBP did not revise encounter
records in the IBIS database in a timely fashion to reflect modified or
removed terrorist identities. For example, in one case the CBP did not make
a TSC-requested change for more than 130 days.

      TSC officials noted that no response timeframes have been established
with partner agencies for redress matters. The Redress MOU states that one
of the goals of the redress process is to provide for a timely review, but

                               - 55 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


explicit timeframes are not defined. We believe that timeliness measures
should be established for resolving terrorist watchlist redress complaints and
responding to complainants. The TSC Privacy Officer stated a next step in
improving terrorist watchlist-related redress coordination among
government agencies is to negotiate timeframes for redress processing.
Given the TSC’s responsibility for the content of the consolidated terrorist
watchlist and its role in developing the Redress MOU, we recommend that
the TSC attempt to coordinate timeliness measures for the entire watchlist
redress process.

Response to Redress Complainants

      The TSC does not respond to complainants filing redress inquiries.
Instead, the TSC notifies the frontline screening agency of its disposition
decision as it relates to the terrorist watchlist. The frontline screening
agency involved in the watchlist-related encounter prompting the complaint
is responsible for responding to the complainant. TSC policy dictates that
responses to complainants neither confirm nor deny the existence of
watchlist records relating to the complainant. This nondisclosure policy
exists to protect U.S. counterterrorism operations and intelligence objectives
and to safeguard the personnel involved in these sensitive activities. The
TSC works with screening agencies such as the TSA in developing
appropriate language for responding to complainants.

       While the FBI is not the user of the NCIC database during a terrorist
watchlist-related encounter involving a state or local law enforcement
officer, it is the de facto screening agency in instances involving its NCIC
database, and therefore responsible for responding to redress complaints
concerning its database. 66 In May 2007, the FBI implemented a watchlist
redress policy, identifying its Terrorist Review and Examination Unit (TREX)
as responsible for processing the FBI’s review of redress matters and for
responding to complainants for NCIC-related complaints. 67 However, before
it developed this policy, the FBI had not decided how it would respond to
complainants, and we found that as of June 2007 it had not responded to a


       66
           A typical NCIC-related encounter involves a state or local law enforcement officer
conducting a routine traffic stop. The officer searches the subject’s identification
information (full name and date of birth) through the NCIC system to check for any
outstanding warrants on the person. In the event the person is a possible terrorist watchlist
identity match, the NCIC system will instruct the officer to contact the TSC to confirm the
identity of the individual as an actual watchlist subject and to be instructed on the proper
handling procedures for this individual.
       67
         As stated earlier, only 4 percent of the redress referrals provided to the TSC from
January 2005 through February 2007 were from non-DHS components such as the FBI.

                                   - 56 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


redress complainant on a matter the TSC had closed on February 13, 2007,
and had forwarded to the FBI for action.

Appeal of Redress Disposition

      If a complainant is not satisfied with the disposition of an initial
redress inquiry, the complainant may file an administrative appeal where
available by the screening agency. The Redress MOU outlines the
responsibilities for each agency in processing an administrative appeal of an
original redress inquiry determination. Additionally, the TSC adopted a
separate Redress Appeals SOP in November 2006 to expressly describe its
administration of an appealed redress decision. The TSA is the only frontline
screening agency that has developed its own process for redress appeals.

        The TSC Redress Appeals SOP stipulates that a complete analysis of
the appeal be performed by the TSC Legal Department, a unit separate from
the Redress Office. The TSC prohibits the TSC Redress Office and any
personnel involved in the original redress review from direct involvement in
the redress appeal process. According to the SOP, the TSC will alert NCTC
and the nominating agency that an appeal has been submitted, and it will
facilitate necessary communication between the nominating and screening
agencies. The final recommendation or decision is determined by the TSC
Redress Appeals Board, comprised of TSC Deputy Directors. For an appeal
involving a No Fly watchlist status, the TSC recommends a disposition and
the TSA has the final decision authority.

      As of May 1, 2007, the TSC had received four redress appeals. It
resolved two appeals, and these resulted in downgrading the watchlist status
of the individuals. The remaining two appeals had been pending resolution
for 83 and 167 days, according to the TSC. The TSC stated that staffing
constraints hindered its ability to more quickly resolve these redress
appeals. The TSC informed us that in April 2007 it was able to assign
redress appeal duties to a permanent staff position and the TSC believes
that this action will improve the TSC’s timeliness in resolving redress
appeals.

Proactive Redress

      It is possible for the TSC and other watchlist agencies to use available
information to provide unsolicited relief to non-watchlist persons identified
by the terrorist watchlist process. Besides its standard redress reviews, the
TSC Redress Office also conducted ancillary evaluations of persons reported
to have been identified by terrorist watchlist screening who had not filed a
formal complaint. Additionally, the U.S. government, including the TSC and
screening agencies, has information on persons misidentified as a terrorist
                               - 57 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


watchlist subject in the various screening databases. However, the
U.S. government, including the TSC, is not currently coordinating the use of
this data in attempts to proactively reduce the incidence and impact of
misidentifying persons as watchlist subjects.

TSC Informal Redress Reviews

       Typically, the TSC undertakes a redress review only when an individual
submits a formal redress request. Occasionally, however, the TSC Redress
Office reviews records outside this formal process. The TSC may be asked
by a government official to look into a matter or it may acquire from a news
media publication the name of a person possibly stopped due to the terrorist
watchlist. For instance, a newspaper may publish an article explaining that
a foreigner was not allowed to board a flight destined for the United States
and the TSC Redress Office believes that the TSC should research the
events. In such a case, the TSC Redress Office performs an evaluation
similar to its formal redress review for such matters. First, it determines if
the person was the subject of a terrorist watchlist-related encounter. If so,
it reviews the related watchlist record for accuracy and completeness,
making changes and updates as necessary.

      The TSC Redress Office maintains a log that records the intake and
resolution of these proactive reviews. Our review of this log shows that
since this initiative began in December 2005, the TSC had resolved 76 cases
through March 1, 2007, tracking them according to its redress disposition
categories. Exhibit 4-5 shows that over 80 percent of these reviews
involved an individual who experienced a watchlist-related encounter
(misidentification and positive-match categories). Of the 32 positive
matches, terrorist records were modified or removed from the watchlist for
16 of the reviews.

                                EXHIBIT 4-5
                       TSC Informal Redress Reviews
                   (December 2005 through March 1, 2007)
       Disposition Category            Number           Percent
       Misidentification                  32              42%
       Positive Match                     32              42%
       Non-related                        10              13%
       Further Investigation 68            2               3%
       Total                              76             100%
       Source: The Terrorist Screening Center Redress Office


       68
          Two of the TSC Redress Office’s informal reviews required further investigation in
order to determine the relationship of the individual to a watchlist identity.

                                   - 58 -
                        REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE


Use of Watchlist Encounter Information for Misidentified Individuals

      The TSC has a record of all potential terrorist watchlist encounters
referred to its call center, including information on positive, negative, and
inconclusive encounters. 69 Therefore, the TSC has knowledge of the
watchlist records involved in the negative encounters referred to its call
center, as well as information on the individual that was misidentified as a
potential terrorist for a period of time.

      The TSC does not have any policy or procedures to proactively use
information from negative encounters to reduce the incidence and impact of
terrorist watchlist misidentifications. Moreover, the TSC’s strategic plan
does not include goals or actions associated with reducing the incidence of
misidentifications or the impact on misidentified persons, other than that
covered by the formal redress process. Considering that 43 percent of all
encounters referred to the TSC Call Center are negative for a watchlist
match, we believe the TSC should develop strategic goals and policy specific
to mitigating the adverse impact of the terrorist screening process on non-
watchlist subjects, particularly for individuals who are repeatedly
misidentified as potential watchlist subjects.

       Additionally, we believe the TSC should consider developing the ability
within its encounter tracking system or consolidated watchlist database to
alert the TSC to take proactive action on watchlist records that have been
the subject of a certain number of encounters. For example, the system
could be programmed to automatically generate a quality assurance lead for
the TSC to perform a comprehensive review of the terrorist record. Such a
function would help certify that a watchlist record frequently the subject of
encounters, whether the encounters are positive, negative, or inconclusive,
is accurate, complete, and current. This is important for both appropriately
handling suspected or known terrorists and for reducing the adverse effects
on persons misidentified as watchlist subjects.

Conclusion

       Screening agencies across the federal government are in the process
of instituting an interagency agreement that will formalize the
U.S. government’s review of redress inquiries from individuals who complain
they were adversely affected during watchlist screening. Additionally, the

       69
          Not all potential watchlist matches are referred to the TSC. If possible, screening
agencies resolve negative encounters without contacting the TSC by comparing information
on the encountered individual to the potential terrorist watchlist identity match. Screening
agencies contact the TSC Call Center on all encounters where it cannot definitively make this
determination.

                                   - 59 -
                        REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


TSC has developed its own SOP for processing redress complaints. We
found that the TSC generally followed these procedures, the procedures are
comprehensive, and TSC staff resolved redress matters logically and
accurately.

      However, our examination of TSC redress files also revealed that the
TSC’s comprehensive redress reviews often resulted in watchlist record
changes and removals. We believe that the high percentage of redress
reviews resulting in changes to or removals of watchlist records provides
further evidence that watchlist data needs continuous monitoring and
attention.

      Our review also revealed that watchlist agencies, including the TSC
and nominating and screening agencies, sometimes caused unnecessary
delays in closing redress inquiry reviews. We recommend that the TSC
coordinate efforts for the watchlist agencies to develop timeliness measures
for each stage in the redress process.

Recommendations

We recommend that the TSC:

  15. Organize a working group comprised of representatives from agencies
      involved in the terrorist watchlist redress process to develop
      timeliness measures for each phase in the redress process.

  16. Develop goals and measures for its strategic plan to reduce the
      incidence and impact of misidentifications.

  17. Develop procedures to proactively review terrorist watchlist identities
      that are frequently the subject of watchlist encounters, no matter if
      the encounter was positive, negative, or inconclusive.

We recommend that the FBI:

  18. Develop and implement timeliness measures to ensure that the FBI
      responds in a timely manner to redress inquiries from complainants
      subject to terrorist watchlist-related encounters involving the NCIC
      database, including the complainant identified by the OIG whose
      complaint has been pending since February 2007.




                               - 60 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


              STATEMENT ON INTERNAL CONTROLS

      In planning and performing our audit of the TSC, we considered its
control structure for the purpose of determining our audit procedures. This
evaluation was not made for the purpose of providing assurance on the TSC
management control structure as a whole. However, we noted certain
matters involving management controls that we considered to be reportable
conditions under the Government Auditing Standards.

       Reportable conditions involve matters coming to our attention relating
to significant deficiencies in the design or operations of the management
control structure that, in our judgment, could adversely affect the TSC’s
ability to maintain and disseminate accurate and complete information on
known or suspected terrorists used during watchlist screening. We identified
weaknesses in the TSC’s internal control structure that resulted in inaccurate
and incomplete watchlist records and terrorist identities not being correctly
exported to downstream watchlist databases. These issues are discussed in
Findings I, II, and III of the report.

      Because we are not expressing an opinion on the TSC’s management
control structure as a whole, this statement is intended solely for the
information and use of the TSC management. This restriction is not
intended to limit the distribution of the report.




                                    - 61 –

                      REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE


         STATEMENT ON COMPLIANCE WITH LAWS AND
                      REGULATIONS

       In connection with this audit of the TSC, as required by generally
accepted government auditing standards, we reviewed management
processes and records to obtain reasonable assurance about the
organization’s compliance with laws and regulations that, if not complied
with, in our judgment, could have a material effect on TSC operations.
Compliance with laws and regulations applicable to the management of the
TSC is the responsibility of the TSC’s management.

      Our audit included examining, on a test basis, evidence about laws and
regulations related to the maintenance and sharing of information on
suspected or known terrorists. The specific laws and regulations we
reviewed included the relevant portions of:

     •   Intelligence Authorization Act, Public Law 108-177;

     •   Homeland Security Presidential Directive 6; and

     •   Homeland Security Presidential Directive 11.

      Our tests of the consolidated terrorist watchlist identified weaknesses
related to the accuracy and completeness of the data which is discussed fully
in Findings I, II, and III. The requirements for an accurate and complete
watchlist are contained in HSPD 6.

      With respect to areas that were not tested, nothing came to our
attention that caused us to believe that the TSC management was not in
compliance with the laws and regulations cited above.




                                   - 62 –

                     REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX I
  APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY

Audit Objectives

       The objectives of the audit were to: (1) determine whether accurate
and complete records are disseminated to and from the Terrorist Screening
Center’s (TSC) watchlist database in a timely fashion; (2) review the TSC’s
efforts to ensure the quality of the information in the watchlist database;
and (3) assess the TSC’s efforts to address complaints raised by individuals
who believe they have been incorrectly identified as watchlist subjects.

Scope and Methodology

      We performed our audit in accordance with Government Auditing
Standards issued by the Comptroller General of the United States, and
accordingly, included such tests of the records and procedures that we
considered necessary. Our audit covered but was not limited to the period
of June 2005 through April 2007.

      To accomplish our objectives, we conducted work primarily at the TSC,
located in the Washington, D.C., metropolitan area. Additionally, we
interviewed personnel at other federal agencies and offices whose work
relates to TSC operations, such as NCTC, the FBI, DHS, and the White House
Privacy and Civil Liberties Oversight Board.

      To obtain an overall understanding of the TSC’s role and
responsibilities, we reviewed legislative materials related to the TSC’s
creation and watchlisting requirements, prior audit reports, and various
other documents as needed, including financial documents, strategic plans,
and staffing reports.

Accuracy and Completeness of Database Records

      To obtain an understanding of the TSC’s processes and procedures for
ensuring the quality of data ingested into and exported from the Terrorist
Screening Database (TSDB), we reviewed the TSC’s procedures for
processing database nominations and encounters. In addition, we
interviewed:

     •   Contractors and representatives from the various participating
         Departments working within the TSC’s Administration Branch,
         Operations Branch, Information Technology Branch, Call Center,
         Nominations and Data Integrity Unit, and other support areas.


                               - 63 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                                APPENDIX I
     •   Program managers at NCTC.

     •   Supervisors from the FBI’s Terrorist Threat Center, Terrorist
         Review and Examination Unit, and Terrorist Screening Operations
         Unit.

     •   The Executive Assistant Director of the FBI’s National Security
         Branch and the Assistant Director and Deputy Assistant Director of
         its Counterterrorism Division.

Testing of Watchlist Database Records

      As of March 16, 2007, there were 689,613 records in the web-based
version of the TSDB. We performed various tests of a limited number of
these records, and reviewed related records from the pertinent automated
data systems used to store terrorist-related information maintained by the
NCTC and FBI, to determine whether the records were accurate and
complete, and any record changes were made in a timely fashion. The
automated data systems were the TSDB, TSC’s Encounter Management
Application (EMA), NCTC’s Terrorist Identities Datamart Environment (TIDE),
and the FBI’s Violent Gang and Terrorist Organization File (VGTOF).

      In addition to querying the TSDB to identify duplicate records and
determining whether records related to 20 FBI requests for removal had
been deleted from the TSDB in a timely manner, our tests of judgmentally
selected records included:

     •   Review of 50 TSDB records related to 25 FBI international terrorist
         and 25 FBI domestic terrorist nominations to determine whether
         basic identifying information [SENSITIVE INFORMATION
         REDACTED] listed on the FD-930 (the form used by the FBI for
         watchlisting nominations) were accurately entered into the
         databases. In addition, we analyzed key dates shown on the
         FD-930s to determine whether the names and other information
         were entered into the TSDB in a timely fashion.

     •   Review of a sample of 49 known terrorist names to determine
         whether the basic identifying information as well as citizenship and
         physical characteristics were accurately entered into the databases.
         Of these names, 10 were non-FBI originated international terrorist
         identities in the TIDE database, 17 were selected from the FBI’s
         Most Wanted Terrorists list, 2 were selected from the Rewards For
         Justice website, 16 came from the State Department’s Office of


                               - 64 -
                    REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                           APPENDIX I
            Counter Terrorism, and 4 were obtained from various newspaper
            articles.

       •    Review of 51 TSDB records for which TSC staff had identified as
            having quality assurance issues, such as missing, outdated, or
            inaccurate information. 70 This review included identifying the
            quality assurance issue that was raised, determining whether the
            appropriate changes had been made to the TSDB, TIDE, and VGTOF
            records. In addition, we evaluated the timeliness of the revision
            and any additional follow-up performed by TSC staff to ensure that
            the necessary changes were made. Finally, we reviewed these
            records to determine whether the basic identifying information was
            accurately entered into the databases.

       •    Review of 20 TSDB records related to positive encounters with
            watchlist subjects, as recorded in EMA, to determine whether the
            basic identifying information was accurately entered into the
            databases and information obtained by law enforcement agencies
            as a result of the encounters was added to appropriate database
            records.

       •    Review of 15 TSDB records that TSC staff identified as having
            undergone a thorough quality assurance review as part of a special
            project to evaluate the adequacy of the TSC’s review and to
            determine whether the basic identifying information was accurately
            entered into the databases.

       Finally, we compared information in the TSDB records to watchlisting
criteria to determine whether the individuals were nominated for the
appropriate watchlists and were assigned an appropriate handling
instruction. 71

Watchlist Redress

      To obtain an understanding of the TSC’s role in the terrorist watchlist
redress process and its efforts to reduce watchlist misidentifications, we
reviewed the TSC’s redress procedures and the U.S. government’s

       70
          25 of the 51 records were selected from the TSC’s Quality Assurance Tracker, the
TSC’s original system for monitoring TSDB records with quality assurance issues. The
remaining 26 records were selected from quality assurance tickets, the TSC’s current
monitoring system.
       71
         The criteria used by the agencies hosting TSDB records are identified in
Appendix II.

                                   - 65 -
                        REDACTED FOR PUBLIC RELEASE
                     REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX I
interagency agreement on terrorist watchlist redress. We judgmentally
selected and examined 20 redress complaints reviewed by the TSC Redress
Office to evaluate whether the TSC followed its Redress SOP for resolving a
redress complaint.

      We also conducted interviews with the TSC’s Privacy and Redress
Officers, and we reviewed the TSC’s strategic plan to identify any goals
related to redress or reducing the incidence and effect of watchlist
misidentification. Additionally, to obtain an understanding of the partner
agencies’ roles in the redress process and how they coordinate with the TSC,
we interviewed representatives from the White House Privacy and Civil
Liberties Oversight Board, the DHS’s Screening Coordination Office, TSA,
and CBP.

      From January 2005 through February 2007, 438 redress complaints
were referred to the TSC. During this same period, the TSC closed
388 complaints. We performed various analyses of TSC’s redress referral
data, including calculating:

      •   the percent of cases referred to the TSC according to referring
          agency;

      •   the average amount of time cases were open, and evaluating the
          reasons affecting delays in closing the matters; and

      •   the TSC’s disposition for its closed redress matters.




                                - 66 -
                     REDACTED FOR PUBLIC RELEASE
                      REDACTED FOR PUBLIC RELEASE
                                                                  APPENDIX II
APPENDIX II: SYSTEMS USED IN THE TERRORIST WATCHLIST
                      PROCESS

       The Terrorist Screening Database (TSDB) is the U.S. Government's
consolidated terrorist watchlist. The TSDB contains basic biographical
information on known or appropriately suspected domestic and international
terrorists. In this regard, the underlying derogatory information on individuals
nominated for inclusion in the TSDB must demonstrate a reasonable suspicion of
ties to terrorism.

      Currently, TSDB records are exported to various U.S. and international
government entities tasked with conducting terrorism screening. Each agency
receiving TSDB records has established criteria that dictate what records it
receives from the TSC. The TSC provided us with the following descriptions of
the databases receiving watchlist records and the minimum criteria for exporting
records to them:

CLASS

      The Consular Lookout and Support System (CLASS) is maintained by the
Department of State (State Department). CLASS, divided into CLASS/Visa and
CLASS/Passport, is used by State Department representatives when processing
visa and passport applications, respectively.

       [SENSITIVE INFORMATION REDACTED]

IBIS

      The Interagency Border Inspection System (IBIS) is maintained by DHS’s
U.S. Customs and Border Protection agency. IBIS is generally queried by federal
law enforcement agents at ports of entry.

       [SENSITIVE INFORMATION REDACTED]




                                 - 67 -
                      REDACTED FOR PUBLIC RELEASE
                        REDACTED FOR PUBLIC RELEASE
                                                                    APPENDIX II
No Fly and Selectee Lists

      The No Fly and Selectee Lists are maintained by the Transportation
Security Administration. These lists are used by public carriers, both airline and
other modal, to screen their passengers. The No Fly list includes individuals who
are prohibited from boarding an aircraft. The Selectee list includes individuals
who must undergo additional security screening checks before being permitted to
board an aircraft.

       [SENSITIVE INFORMATION REDACTED]

   •   In addition, a minimum threshold of derogatory information for inclusion
       on the No Fly or Selectee lists was established on October 21, 2004, by the
       Homeland Security Council.

       [SENSITIVE INFORMATION REDACTED]

VGTOF

       Terrorist records contained in the Violent Gang and Terrorist Organization
File (VGTOF) is one segment of the FBI’s National Crime Information Center
(NCIC) system. The NCIC is a database queried by federal, tribal, state, and
local law enforcement agencies in performance of their duties.

Minimum Criteria:

      In order for a known or suspected terrorist to be included in VGTOF, the
following minimum biographical information is required:

       •   first name
       •   last name
       •   approximate year of birth




                                   - 68 -
                        REDACTED FOR PUBLIC RELEASE
               REDACTED FOR PUBLIC RELEASE
                                                    APPENDIX III
APPENDIX III: DIAGRAM OF TERRORIST WATCHLIST DATAFLOW




                [SENSITIVE INFORMATION REDACTED]




                          - 69 -
               REDACTED FOR PUBLIC RELEASE
             REDACTED FOR PUBLIC RELEASE
                                                           APPENDIX IV
              APPENDIX IV: ACRONYMS

CBP      Customs and Border Protection
CIA      Central Intelligence Agency
CIO      Chief Information Officer
CLASS    Consular Lookout and Support System
DHS      Department of Homeland Security
DOJ      Department of Justice
EMA      Encounter Management Application
FBI      Federal Bureau of Investigation
FY       Fiscal Year
HSPD-6   Homeland Security Presidential Directive-6
IBIS     Interagency Border Inspection System
ICE      Immigration and Customs Enforcement
IT       Information Technology
MOU      Memorandum of Understanding
NCIC     National Crime Information Center
NCTC     National Counterterrorism Center
NDIU     Nominations and Data Integrity Unit
NTP      Nomination Tracking Processor
ODNI     Office of the Director of National Intelligence
OIG      Office of the Inspector General
TIDE     Terrorist Identities Datamart Environment
TREX     Terrorist Review and Examination Unit
TSA      Transportation Security Administration
TSC      Terrorist Screening Center
TSDB     Terrorist Screening Database
TSOU     Terrorist Screening Operations Unit
SOP      Standard Operating Procedure
VGTOF    Violent Gang and Terrorist Organization File




                        - 70 -
             REDACTED FOR PUBLIC RELEASE
            REDACTED FOR PUBLIC RELEASE
                                          APPENDIX V
APPENDIX V: TERRORIST SCREENING CENTER RESPONSE




                       - 71 -
            REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX V




           - 72 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX V




           - 73 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX V




           - 74 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX V




           - 75 -
REDACTED FOR PUBLIC RELEASE
REDACTED FOR PUBLIC RELEASE
                              APPENDIX V




           - 76 -
REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VI
      APPENDIX VI: OFFICE OF THE INSPECTOR GENERAL
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                    CLOSE THE REPORT

      In its response to our draft audit report, the TSC concurred with each of
our 18 recommendations and discussed the actions it has already taken and
others it will implement in response to our findings. This appendix contains
our analysis of the TSC’s responses to our recommendations and the actions
necessary to close each recommendation.

Status of Recommendations

1.    Resolved. The TSC concurred with our recommendation that it
      implement its plan to consolidate the TSDB NTP and legacy databases
      in a timely manner, and the TSC stated that it developed a project
      plan to guide the future consolidation of the system. In the interim
      period while it is still necessary to operate both databases, the TSC
      stated that it implemented a daily reconciliation process between the
      TSDB NTP and legacy databases for routine monitoring of the data.

      This recommendation can be closed when we receive evidence that the
      TSC has fully implemented its plan to consolidate the TSDB NTP and
      legacy databases. In the meantime, please provide evidence that the
      TSC has implemented a daily reconciliation process that identifies and
      addresses differences in database content.

2.    Resolved. In its response to our draft report, the TSC concurred with
      our recommendation to develop procedures to regularly review and
      test the information contained in the TSDB to ensure the data is
      complete, accurate, and non-duplicative. The TSC noted that it has
      used informal procedures to review and test the information in the
      TSDB, and it now has implemented procedures to formalize this
      process.

      This recommendation can be closed when we receive documentation or
      other evidence to support that the TSC has developed and fully
      implemented procedures to regularly review and test information in
      the TSDB to ensure the data is complete, accurate, and non-
      duplicative.

3.    Resolved. The TSC concurred with our recommendation and stated
      that it will implement our recommended changes as part of its
      planned, phased improvements for the TSDB NTP, including the
      incorporation of the export capability of the legacy system.
                               - 77 -
                    REDACTED FOR PUBLIC RELEASE
                   REDACTED FOR PUBLIC RELEASE
                                                              APPENDIX VI


     This recommendation can be closed when we receive evidence that the
     TSC has mofidied the TSDB NTP to accommodate designations for both
     CLASS/Visa and CLASS/Passport, and that it has reviewed and
     corrected the records identified in the TSDB NTP to appropriately
     reflect that U.S. persons are not eligible for export to CLASS/Visa.

4.   Resolved. The TSC concurred with this recommendation and stated
     that it had completed its review of watchlist records and made
     corrections to records in the TSDB NTP with incorrect IBIS handling
     instructions.

     This recommendation can be closed when we receive evidence that the
     TSC identified and corrected the watchlist records with inappropriate
     IBIS handling instructions.

5.   Resolved. In its response to our draft report the TSC concurred with
     this recommendation and stated that while it had used previously
     undocumented procedures, it will now formalize this process to ensure
     that outdated or obsolete data is removed in a timely manner.

     This recommendation can be closed when we receive evidence that the
     TSC has developed and implemented formal procedures to regularly
     review the information in the TSDB to ensure that outdated or
     obsolete data is removed in a timely manner.

6.   Resolved. The FBI concurred with our recommendation and stated
     that it will continue to work to revise the current nomination process.
     However, the FBI stated that it had implemented its current
     nomination process initially to address its concern that watchlist
     nominations were not being processed in a timely manner due to the
     operations schedule of the NCTC.

     While we recognize that the FBI conducts its watchlisting operations
     on a continuous basis, we believe that the NCTC is operational during
     the time period in which the majority of watchlist nominations are
     submitted. Further, an additional emergency nomination process is
     available to the FBI for those instances in which the FBI determines a
     nomination is exigent and the NCTC may not be available. Given our
     identification of significant data errors and inconsistencies resulting
     from the FBI’s non-standard nomination process for international
     terrorists, we believe that the FBI, NCTC, and TSC should work
     together to design a more consistent and reliable process by which
     FBI-originated international terrorist information is provided to the

                              - 78 -
                   REDACTED FOR PUBLIC RELEASE
                       REDACTED FOR PUBLIC RELEASE
                                                                   APPENDIX VI
        NCTC for inclusion in TIDE and disseminated to the TSDB and
        downstream screening systems, including VGTOF. To close this
        recommendation, please provide us with information on specific steps
        taken to revise the FBI’s watchlist nomination process for known or
        suspected international terrorists.

7.      Resolved. The TSC concurred with this recommendation and stated
        that it has taken steps to correct the watchlist records under its
        purview. This recommendation can be closed when we receive
        evidence that the records we identified during our review that
        contained incorrect watchlist designations, handling code errors, and
        inaccurate and inconsistent information have been corrected.

8.      Resolved. The TSC concurred with our recommendation to coordinate
        with NCTC and FBI to implement an agreement that establishes the
        areas of responsibility and the timeframes for data quality assurance
        matters.

        This recommendation can be closed when we receive evidence
        supporting the implementation of a signed agreement between the
        NCTC and FBI that outlines areas of responsibility and the timeframes
        for data quality assurance matters.

     9. Resolved. The TSC concurred with our recommendation to develop a
        comprehensive standard operating procedure that describes the TSC’s
        quality assurance strategy and details the methodology to be used in
        performing quality assurance reviews.

        This recommendation can be closed when we receive evidence that the
        TSC has finalized its quality assurance strategy and methodology and
        has trained its staff on using the standard operating procedure in
        performing quality assurance reviews.

10.     Resolved. The TSC concurred with our recommendation to develop a
        process to perform regular spot-checks of NDIU analysts’ work. This
        recommendation can be closed when we receive evidence that the TSC
        has developed, documented, and implemented a process to perform
        regular spot-checks of NDIU analysts’ work to identify weaknesses and
        needs for additional training.

11.     Resolved. In its response, the TSC concurred with this
        recommendation and stated that it had implemented a solution to
        remedy our finding. Specifically, the TSC stated that it will utilize the
        FBI’s Automated Case Support (ACS) system to track all quality

                                  - 79 -
                       REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VI
      assurance classified correspondence, including e-mails and electronic
      communications.

      This recommendation can be closed when we receive evidence that the
      TSC has formally documented this process and communicated the
      policy to its staff.

12.   Resolved. The TSC concurred with this recommendation and stated
      that it has begun developing a tickler system or electronic dashboard
      for pending quality assurance matters. This recommendation can be
      closed when we receive evidence that the TSC has implemented such a
      system.

13.   Resolved. The TSC concurred with this recommendation and stated
      that it will develop a comprehensive plan to ensure that each record in
      the TSDB has undergone a quality assurance review.

      This recommendation can be closed when we receive evidence that the
      TSC has developed a plan that: (1) includes specific milestones for
      the successful completion of this comprehensive review, (2) tracks its
      progress against these milestones, and (3) identifies actions to take if
      the milestones are not met.

14.   Resolved. The TSC concurred with this recommendation and stated
      that since its inception the TSC has used an undocumented process to
      coordinate with other partner agencies to obtain relevant information
      captured by frontline screening agents during encounters with known
      or suspected terrorists. We recognize that the TSC has endeavored to
      update watchlist records by incorporating encounter information
      captured by frontline screening agents. However, without a formal
      process with which frontline screening agencies agree, the TSC is
      unable to ensure that it is receiving complete, accurate, and timely
      encounter information. This recommendation can be closed when the
      TSC provides documentation to support that a formal process has been
      developed and implemented between partner agencies to ensure that
      encounter data is appropriately returned to the TSC for updating
      watchlist records.

15.   Resolved. The TSC concurred with this recommendation and stated
      that implementation to address this recommendation was underway
      and pending signatures by all parties. This recommendation can be
      closed when we receive the finalized agreement containing timeliness
      measures for processing watchlist redress matters agreed to and
      signed by the appropriate agencies.

                               - 80 -
                    REDACTED FOR PUBLIC RELEASE
                    REDACTED FOR PUBLIC RELEASE
                                                               APPENDIX VI


16.   Resolved. The TSC concurred with this recommendation and stated it
      is developing goals and performance measures relative to
      misidentifications for its strategic plan. This recommendation can be
      closed when the TSC provides its updated strategic plan that includes
      goals and performance measures to address reducing the incidence
      and impact of misidentifications.

17.   Resolved. The TSC concurred with this recommendation, stating in
      its response that it is developing the framework for a program that will
      proactively review watchlist records related to frequently encountered
      individuals. This recommendation can be closed when the TSC
      provides documentation formalizing this new proactive redress
      program, as well as evidence that this program has been
      implemented.

18.   Resolved. The FBI concurred with our recommendation and stated
      that it has instituted a new policy and process for resolving redress
      matters involving the NCIC database. Additionally, the FBI noted that
      the February 2007 redress matter that was pending at the time of our
      review has been resolved.

      To close this recommendation, please provide us the FBI policy
      containing timeliness measures for processing NCIC-related redress
      matters. Additionally, please provide documentation to confirm that
      the February 2007 redress matter that was pending at the time of our
      review has been appropriately resolved.




                               - 81 -
                    REDACTED FOR PUBLIC RELEASE
